<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2007 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-72]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2007
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

                  BUDGET REQUEST FOR SPACE ACTIVITIES

                               __________

                              HEARING HELD

                             MARCH 16, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                    U.S. GOVERNMENT PRINTING OFFICE
30-148                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                     STRATEGIC FORCES SUBCOMMITTEE

                    TERRY EVERETT, Alabama, Chairman
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
TRENT FRANKS, Arizona                JOHN SPRATT, South Carolina
MICHAEL TURNER, Ohio                 LORETTA SANCHEZ, California
MIKE ROGERS, Alabama                 ELLEN O. TAUSCHER, California
JOE SCHWARZ, Michigan                RICK LARSEN, Washington
CATHY McMORRIS, Washington           JIM COOPER, Tennessee
GEOFF DAVIS, Kentucky
                Lynn Williams, Professional Staff Member
               Bill Ostendorff, Professional Staff Member
                Bob DeGrasse, Professional Staff Member
                    Katherine Croft, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, March 16, 2006, Fiscal Year 2007 National Defense 
  Authorization Act--Budget Request for Space Activities.........     1

Appendix:

Thursday, March 16, 2006.........................................    29
                              ----------                              

                        THURSDAY, MARCH 16, 2006
FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                            SPACE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Chairman, 
  Strategic Forces Subcommittee..................................     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Strategic Forces Subcommittee..........................     2

                               WITNESSES

Kerr, Dr. Donald M., Director, National Reconnaissance Office....     8
Klotz, Lt. Gen. Frank G., Commander, Air Force Space Command, 
  Department of the Air Force, U.S. Air Force....................    11
Sega, Hon. Ronald M., Under Secretary of the Air Force, 
  Department of the Air Force....................................     4

                                APPENDIX

Prepared Statements:

    Kerr, Dr. Donald M...........................................    56
    Klotz, Lt. Gen. Frank G......................................    66
    Reyes, Hon. Silvestre........................................    33
    Sega, Hon. Ronald M..........................................    39

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Calvert..................................................   107
    Mr. Everett..................................................    95
    Mr. Larsen...................................................   107
    Mr. Reyes....................................................    99
    Ms. Sanchez..................................................   106
    Mr. Spratt...................................................   102
FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                            SPACE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                          Washington, DC, Thursday, March 16, 2006.
    The subcommittee met, pursuant to call, at 1 p.m., in room 
2212, Rayburn House Office Building, Hon. Terry Everett 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM 
        ALABAMA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. The hearing will come to order.
    The subcommittee meets today to receive testimony on the 
Department of Defense's fiscal year 2007 budget request for 
space activities.
    Thank you all for coming.
    Our guests today are Dr. Ronald Sega, Undersecretary of the 
Air Force; Dr. Donald Kerr, Director, National Reconnaissance 
Office (NRO); Lieutenant General Frank Klotz, Acting Commander, 
Air Force Space Command.
    Gentlemen, the subcommittee holds a great deal of interest 
in maintaining the space capabilities essential for military 
operations. The warfighters' reliance on space operations will 
continue to grow, and the management of our space programs must 
enable future technology development within the limits of a 
tightening budget.
    Along these lines are three critical areas we would like 
for you to address before the subcommittee today. First, we 
would greatly appreciate an update on the status of the space 
cadre. In my mind, nothing can be more important for the 
success of our space program than the development of a 
competent and capable force of space professionals. Numerous 
studies have identified a deficit in our space professionals or 
the space cadre. It is critical that we aggressively address 
the shortfall in order to develop a corps of professionals that 
are competent in both technology and acquisition practices and 
capable of leading our space programs into the future.
    Second, the subcommittee would like to see what measures 
are being taken to ensure that our future investments in space 
will not continue down the old familiar track of cost overruns 
and program delays.
    Programs such as the Military Strategic, Tactical & Relay 
Satellite (MILSTAR), Space-based Infrared System (SBIRS)-High, 
Advanced Extremely High Frequency (EHF), Future Imagery 
Architecture (FIA) and Evolved Expendable Launch Vehicle (EELV) 
reflect significant programs in the way we have been doing 
business. I ask that you discuss the steps you are taking to 
address the problems that continue to plague our space 
programs.
    Finally, I would ask you to address the operational 
integration of space. Finding new and better ways to leverage 
our space assets is critical in today's battle environment. 
Initiatives such as the Operationally Responsive Space (ORS) 
give us hope that we can find innovative ways to acquire and 
deploy new space systems at much lower costs.
    Programs like Tactical Satellite (TacSat) bring hope that 
we can change the way we think about space systems and gain the 
ability to rapidly respond to the warfighters' need for space 
support. Along the way, we may also gain some long-term 
benefits by broadening the industrial base and testing new 
technologies.
    Today the topic at hand is the fiscal year 2007 budget 
request for space activities. Along with my subcommittee 
colleagues, I look forward to an informative hearing.
    Now let me introduce my good friend, Mr. Reyes, for his 
comments.

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Reyes. Thank you, Mr. Chairman, and I join you today in 
welcoming our distinguished witnesses, Air Force 
Undersecretary, Dr. Ronald Sega, the NRO director, Dr. Donald 
Kerr, and Acting Air Force Space Commander, Lieutenant General 
Klotz. I want to thank each of you for your service to our 
country and for taking time to be with us today.
    Mr. Chairman, our witnesses will present highlights of the 
fiscal year 2007 budget request for space activities. Space 
systems afford extraordinary benefits to our troops in combat 
and are increasingly integrated into the fabric of our weapons 
systems and our military operations.
    It is hard to overstate the importance of space systems to 
our troops on the ground or, for that matter, to each of us in 
our everyday activities. We have all seen the pictures of 
precision-guided munitions that depend on Global Positioning 
System (GPS) signals, and most of us have purchased gas using a 
credit card that was authorized through a satellite 
communications link.
    Yet our ability to exploit the benefits of space is 
threatened by two trends. First, as Chairman Everett has often 
reminded us here in the committee, the cost of developing and 
launching satellites has literally skyrocketed. Second, space 
is increasingly seen as a potential battlefield.
    The committee has been concerned about both of these 
trends. Last July, in fact, our subcommittee held a hearing 
devoted to exploring those space acquisition problems. And 
during the fall the committee's defense review threat panel 
held an unclassified hearing on space security and took a 
classified briefing on space threats.
    Within the limits of what we can discuss publicly, I hope 
that the witnesses will address both of these trends during our 
hearing this afternoon. How can we improve the acquisition 
system needed to maintain and improve our space capabilities? 
And also, what can we do to improve the security and the 
awareness of our assets that are currently in orbit?
    To set the stage for the discussion of acquisition 
improvements, I would like to remind our witnesses of a key 
finding in the testimony of a Government Accountability Office 
(GAO) report before our subcommittee last summer: ``Overall, we 
have found that Department of Defense (DOD) has been unable to 
match resources--technology, time, money--to those requirements 
before beginning individual programs, setting the stage for 
technical and other problems, which lead to cost and schedule 
increases.''
    Specifically, GAO found the following three points: 
Satellite requirements are either inadequately defined at the 
beginning of a program or changed significantly once that 
program has begun. Technologies are often not mature enough to 
be integrated into a final product. And the third point, cost 
estimates are therefore often unreliable.
    GAO also concluded that, ``DOD starts more programs than it 
can afford, creating a set of incentives and pressures that 
invariably have negative effects on individual programs and the 
larger investment portfolio.''
    While I commend Dr. Sega and Dr. Kerr for taking steps to 
revise the acquisition strategy for key systems, including 
TSAT, SBIRS-High and FIA, the subcommittee has been concerned 
that we are biting off much more than we can chew in space 
weapons and systems development.
    For that reason, Congress has slowed development of 
selected programs and systems through the budget process. The 
Department, the Intelligence Community and the Congress must 
work together to put our national security space programs on an 
affordable, sustainable track.
    One promising approach to improving space acquisition 
practices is the TacSat, or operationally responsive space 
program. This program was created to rapidly deliver to the 
warfighter low-cost tactical capabilities and to stimulate the 
development of a new business model for developing and for 
employing space systems.
    I believe that if properly funded and supported, this 
program can serve as a test bed for the larger space program by 
providing increased access to space for testing critical 
research and development payloads.
    And while physics and mission requirements preclude certain 
roles for TacSats, I hope our witnesses today will discuss how 
we might mix TacSats with larger, more expensive systems in an 
overall architecture that simplifies the mission of individual 
satellites and results in a more affordable solution to meeting 
our everyday needs.
    Unfortunately, a recent GAO report on the TacSat program 
commissioned by our chairman, Chairman Everett, found that 
``DOD lacks a department-wide strategy and leadership for 
implementing efforts in this area. Because key advocates of the 
experiments have left DOD, it is now unclear how well the 
experiments will be supported in the future.''
    So I hope the witnesses will speak to this issue today and 
that the department will allay concerns about DOD's commitment 
to this program in response to the requirement in section 913 
of the fiscal year 2006 defense authorization bill to prepare a 
report by providing a plan for the creation of a joint program 
office for the TacSat program.
    As to the second trend, space as a potential battleground, 
while I understand that raising questions related to threats in 
our space assets potentially can open up a can of worms, I 
know, Mr. Chairman, that I believe that members from both sides 
of this aisle can benefit from an unclassified discussion about 
our interest in assuring both our commercial and our military 
use of space.
    Space is not your traditional battlefield. We need to 
understand the shape of this terrain, potential threats to our 
space assets and the need for increased awareness of space 
activities.
    Mr. Chairman, I appreciate the fact that these issues are 
difficult to talk about in open session, but much has been 
written in the unclassified literature on all of these 
subjects. To the extent that they can, I encourage our 
witnesses today to address unclassified aspects of these issues 
in their testimony.
    With that, Mr. Chairman, I want to again thank you for 
scheduling this hearing and also for scheduling a closed 
briefing on these very vital and important issues in two weeks.
    I want to again welcome our guests. I know we have much 
ground to cover, and I look forward to hearing from our 
distinguished visitors. So with that, I yield back the balance 
of my time.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 33.]
    Mr. Everett. I appreciate my good friend's comments.
    I would simply say that while much has been written in the 
press, there is a great deal of it that has not been accurate. 
And I would not like to see our panel confirm or deny any of 
that information, because once you do that, then all of a 
sudden you put down a benchmark to the validity of that 
particular subject.
    But I, too, agree that we have to have an open conversation 
about this, and we will. And we will also have some closed 
briefings on it.
    Let me say to the witnesses a couple of things today. First 
of all, if you will, please don't read your entire statement. 
If you have a brief statement--I have got one here that weighs 
about a half pound. I won't say where it came from. [Laughter.]
    But if you will, make the statement brief. I don't know 
that we can do this, but we are going to have probably a really 
long series of votes at 2 o'clock. And I would hate to see this 
hearing turn into four hours or five hours or something like 
that and you would have to wait around for an hour. So if you 
could. Your entire statements will be entered into the record.
    And, Dr. Sega, you are first at bat.

 STATEMENT OF HON. RONALD M. SEGA, UNDER SECRETARY OF THE AIR 
               FORCE, DEPARTMENT OF THE AIR FORCE

    Dr. Sega. Mr. Chairman and Congressman Reyes and 
distinguished Members of the committee, I am honored to appear 
before you today to discuss national security space. I thank 
you for putting my written statement in the record.
    As the Undersecretary of the Air Force and DOD executive 
agent for space, I am committed to improving the space 
capabilities on which our commanders and forces depend to 
conduct their missions. I thank this committee and the entire 
Congress for your support of national security space efforts.
    Today I want to outline the importance of space to our 
warfighters and then focus on three areas, and initially on 
just one of those for national security space.
    During the last hurricane season, we witnessed weather 
satellites tracking hurricanes and rescuers using GPS and 
satellite imagery to direct relief efforts to the hardest-hit 
areas. I would like to relay two lesser-known examples of the 
effectiveness of space systems.
    The first example concerns the space support for the 
humanitarian mission that was conducted in the Philippines. 
Space capabilities played a unique role in the relief effort 
after a massive mudslide buried an entire village on the island 
of Leyte.
    Within hours of the disaster, a Hawaii Air National Guard 
combat communications unit that was in the area on an exercise 
switched into real-world humanitarian relief mode. They used 
their Eagle Vision system to quickly merge archival commercial 
satellite imagery with mapping software called Falcon View to 
produce photos and grid maps of the area.
    They then distributed them to relief forces coming from 
mainland China and Okinawa. The archival images provided a 
quick look at the air fields that our airlift and rescue squads 
would use.
    Then they used an Eagle Vision to order, collect and 
process new commercial imagery of the affected area, and they 
shared the important data with U.S. responders and Philippine 
government agencies. This included images that compared the 
area before and after the mudslide and enabled the authorities 
to move effectively to plan the rescue and relief operations.
    The second example comes from Operation Iraqi Freedom; 
specifically, March 26, 2003, the nighttime parachute drops of 
the Army's 173rd Airborne Brigade. The weather is rough; the 
mountains of northern Iraq probably even rougher.
    I had actually the opportunity to talk to Captain John 
Roberts, now Major Select John Roberts, U.S. Air Force combat 
weatherman. He has been in the service about 10 years. Nine of 
those 10 years he has actually been assigned to U.S. Army 
units--a native of Los Angeles, school in Nebraska, eight jumps 
short of master jump wings.
    But in a particular assignment he was out of Italy and the 
planned jump was into northern Iraq to secure the area. A week 
prior, all the predictions were that the weather would be 
horrible on the planned jump night. The brigade commander said 
this night was it, and they would try to make it work.
    So they spent the week studying models, talking to Central 
Command (CENTCOM) weather forecasters. All the information was 
basically bad. Twenty-four hours out, Captain Roberts was using 
primarily satellite imagery to do his close-in forecast 
predictions.
    The weather in his--he predicted that it would be one hour 
of an opening in this weather system. He recommended, and they 
accepted, a change in takeoff to match the weather time. The 
brigade was in flight with 16 C-17s, almost 1,000 troops on the 
first 10 of them and equipment on the others.
    And the ground crew, within an hour of the drop, said the 
weather was a no-go, 800-foot ceiling and blowing snow. And 
John, reviewing the satellite imagery and his best judgment, 
got on the satellite phone, talked to the brigade commander in 
the C-17, and said it is going to be okay.
    Thirty minutes out, still bad. Fifteen minutes out, sky 
began to clear. The jump happened on time. One hour after the 
jump, the weather closed back in. John landed the next day in 
the C-17, and for the Army guys he could do no wrong based on 
that day.
    John heads, as a major select in the Air Force, to Alabama 
where he will be teaching at Air University at Maxwell Air 
Force Base starting this June. So space is important. That is 
just two examples of their role that they have in military 
planning and operations.
    Space also, of course, plays an important role in our 
economy, homeland security, disaster response, provides the 
U.S. asymmetric advantages over our adversaries.
    I focused on three key areas in my written testimony. The 
first was to improve the integration of space capabilities 
across the national security space community as well as with 
air, land and sea-based capabilities.
    The second area is a get-back-to-basics approach to space 
acquisition. I will talk more on that.
    And the third is to ensure the viability and proficiency of 
our space professionals and the science and technology 
workforce.
    I would like to refer to this chart in the area of space 
acquisition. My previous 4 years was as the director of defense 
research and engineering, and in that role, I had the 
opportunity to look at a variety of satellite systems and 
review their technology readiness levels and assess some of the 
problems that they were having.
    Our approach going forward is to look at the system 
production stage, if you will, as starting with more mature 
technologies and reducing the cycle time of each block in the 
system production phase.
    Leading up to that is the systems development stage in 
which the technologies are matured and only then do they 
qualify for entering into the system production line here.
    Before that is technology development; again, maturing the 
technology, testing it as necessary before it enters into a 
systems development stage. And finally, the foundation is in 
science and technology block. So, three interrelated but 
separate stages.
    I believe we should reduce the risk, which we are doing, in 
the system production phase stage, and increasing the risk in 
the technology development in the science and technology phase.
    As we mature technology from one to the next to the next, 
we also are looking at our people getting those experiences as 
they work, get some hands-on experience earlier in their 
career, so that as they become the program manager of the 
future, they will understand the technology, develop technical 
instincts, as well as experience in program management and 
address some of the issues that we have seen over the last few 
years.
    As an example, in the fiscal year 2007 budget we have 
Transformational Satellite (TSAT) coming forward as a block 
one, block two kind of approach. It was noted by, I believe, 
this committee, most of Congress, GAO, and our own internal 
assessment, in terms of the technology maturity of TSAT, and 
many of the technologies to mature--some were not at the level 
that they would qualify, if you will, for the systems 
production phase.
    Working through the Quadrennial Defense Review (QDR) with 
the warfighters, Joint Staff identified those requirements that 
would be important to have at an earlier date, reducing the 
risk of the TSAT satellite system forming a block one.
    What you will see in the fiscal year 2007 budget is that 
set of mature technologies that now constitute block one of 
TSAT. It has a reduction from the final system in terms of some 
of the laser capability. It also has a reduction from the end-
state in terms of processor router capability.
    They are continuing their technology maturation in block 
two, and it is our intent, as they mature, to look at 
satellites three and four. And so the approach going forward on 
TSAT, as the first, is to reduce the risk in the acquisition 
process, following many of Tom Young's panel's recommendations.
    We also have in the fiscal year 2007 budget an 80 percent 
confidence level of the budget. We will be improving the 
systems engineering. General Hamel, commander of Space Missile 
Systems Center, is also instituting many of these changes. 
There is more presence of government people in plant, in our 
programs, going across the board, but TSAT is one example of 
that.
    We also went forward on the ground segment, called TSAT 
Mission Operations Systems (TMOS), to identify those standards 
and protocols to help us better define what the space segment 
will have in it, as we have two contractors continuing to 
mature the technologies prior to the competition.
    So that is an example of this acquisition block approach 
through the TSAT transformational satellite program.
    So in summary, on TSAT, this incremental acquisition--we 
are reducing the procurement risk and putting initial 
capabilities in the warfighters' hands more quickly, and we 
will improve that capability with block upgrades.
    I am confident that this program and others will be able to 
reliably deliver space capabilities needed to fight and win the 
conflict and prepare us for the future.
    Mr. Chairman, I appreciate the continued support of the 
Congress and this committee to ensure we have what is necessary 
to delivery vital capabilities to our warfighter. Thank you for 
the opportunity to appear before you today, and I look forward 
to your questions.
    [The prepared statement of Dr. Sega can be found in the 
Appendix on page 39.]
    Mr. Everett. Thank you very much.
    Dr. Kerr.

      STATEMENT OF DR. DONALD M. KERR, DIRECTOR, NATIONAL 
                     RECONNAISSANCE OFFICE

    Dr. Kerr. Mr. Chairman, Members of the committee, thank you 
for the opportunity to share my views about the role that the 
NRO plays in our national space program.
    I appreciate that you will include my written statement and 
will make every effort to briefly talk about a few of the 
points most important to me and, I hope, to you.
    I should temper my enthusiasm by just saying it is rare for 
the director of the NRO to appear in an open hearing, and I 
will, of necessity, be careful in some of my answers, as you 
have already suggested.
    Last July, the Secretary of Defense, with the concurrence 
of the Director of National Intelligence, appointed me as the 
15th director of the NRO. And while the job was new, my 
familiarity with the NRO and its programs was not, since in 
2001, I had served Secretary Rumsfeld and the then-Director of 
Central Intelligence (DCI) reviewing the role that innovative 
systems in space might play in our national security.
    The conclusions reached at that time are mostly valid 
today, and the sense of urgency, I believe, should be even 
greater, because we need those capabilities in order to inform 
both our military leaders and our policy leaders about a number 
of things that may happen in the world that they would 
otherwise be unaware of.
    And in order to do that, we see two principal missions for 
the NRO as we look forward in time. One is to be the foundation 
for global situational awareness. And the second is, in fact, a 
reality of the work we have been doing for the past 4 years, 
and that is to provide information to our users on time lines 
that are responsive to their needs, not time lines that are 
simply convenient for us.
    We can't do this and be responsive without focusing a lot 
of attention on the ground segment of our systems. And the 
reason is simply this: You can talk about requirements right up 
to the time of launch, but once you have launched a space 
system, you have delivered capability on an orbit, and your 
responsiveness is in how clever you can be in using the 
information that you bring back to the ground. And so it won't 
be a surprise to you to hear that our ground-based capabilities 
will be as critical as overhead collection in meeting the need 
for actionable information.
    Another important point for me to stress, particularly with 
this committee, is that we can't work without the strong 
partnership with our key stakeholders and mission partners. Our 
relationships with Strategic Command (STRATCOM), the National 
Security Agency (NSA), the National Geospacial Intelligence 
Agency (NGA), Homeland Security, military services and 
particularly the Air Force are critical in helping us meet our 
worldwide intelligence surveillance and reconnaissance (ISR) 
responsibilities.
    And certainly, one of the most important stakeholders is 
the United States Congress. And I certainly ask your support as 
we implement the changes required to keep pace with today's 
threats.
    One item I know of concern to the committee is the nature 
of the relationship that we have with the Air Force. It is a 
longstanding cooperative and collaborative partnership that has 
existed since the NRO began about 50 years ago. We leverage 
each other's expertise and resources to meet each of our unique 
mission objectives.
    Space is our common operating environment, not our mission, 
and so the NRO and the Air Force have intersecting interests in 
areas such as personnel, mission assurance standards for 
spacecraft, assured access to space through launch, spacecraft 
development and providing ways to best support the warfighter.
    We have had this long history of collaboration with the Air 
Force and, in fact, we are working today with Dr. Sega, with 
General Klotz, General Moseley and others to strengthen that 
relationship as we look forward.
    The reason we need to do that is times have changed. And in 
fact, our need to deliver near real-time support to the 
warfighter as well as the policy maker is very much the same 
mission of real-time support that Air Force Space Command has 
to deliver to the warfighter and policy makers as well.
    And so we are actively working to find ways to better 
integrate our activities, to recognize the fact that the Air 
Force provides about 50 percent of the workforce at the NRO. 
And a major fraction of those Air Force personnel are active 
duty.
    Many of them come to us with great experience and education 
in engineering and the other disciplines necessary to conduct 
our programs. They are joined by people from CIA, the Navy, 
Army and, in fact, I think we have seven different career 
services for employees at the NRO as a consequence.
    But the point is they are united by our mission and they 
carry it out very well. We think it is an important way for us 
to contribute on the job to developing the space cadre we need 
in the future. And I will come back to that point.
    Mission assurance is important. You heard Dr. Sega mention 
it. We, too, have gone to school on the report that Tom Young 
and Tom Moorman did a few years ago. And we have implemented a 
number of their recommendations.
    I won't enumerate them in time. We may want to come back to 
some of them in the question period. But in fact, mission 
assurance or mission success is our highest priority, and we 
have redeployed our assets and people in order to underpin that 
commitment.
    We also have thrown out acquisition reform, one of the 
great oxymorons of the 1990's, and have returned to the way the 
NRO has done business traditionally in the past.
    And with the changes that we made last summer in the FIA 
program, I think we have, in fact, done a pretty good job of 
resuming the right level of contact with our contractors, the 
right level of government oversight and presence and will, I 
hope, provide stability in the future as we take on other 
challenging programs.
    Launch, of course, is another area. We may be the first 
ride on an EELV from Vandenberg, or we may be second, but the 
point is we are a joint investor with the Air Force and the 
EELV.
    We care every bit as much as they about mission success, 
particularly when our payload is sitting on top, and we will be 
working together to make that launch a success as soon as we 
are able to have both the launch vehicle and the spacecraft 
prepared for that launch.
    I also wanted to mention something that people don't 
associate with the NRO, perhaps, as much as they do with some 
of the other agencies, and that is support to military 
operations. Following September 11, 2001, we have, in fact, 
provided a lot more hands-on training for deployed military 
forces.
    We have NRO people deployed to all of the combatant 
commands. They move out from that and, in fact, we have had 
forward-based personnel in the Afghan Pacific theater as well, 
of course, as in Iraq. They are there simply to help people get 
more from the systems that we have developed and now operate.
    We are not there to do their job. We are there to help them 
learn how to apply these tools to their current intelligence 
needs in a way that is supportive of the operations they are 
conducting. We have done a lot of that training in the past 
year. We have done about 40 training exercises with different 
commands.
    The focus has, of course, had a CENTCOM-centric view of the 
world, but we have also spent a lot of time, particularly with 
Pacific Command (PACCOM), STRATCOM because of their global ISR 
responsibility, somewhat less with European Command (EUCOM), 
although the focus on Africa brings us there because our 
accesses can help them in that regard.
    Some specific things that are noteworthy. We developed, for 
example, the blue force tracking capability, which allows 
commanders to know where our forces are--very critical in the 
early phases of the invasion of Iraq, and it is something that 
we were very proud to be able to contribute to that campaign.
    Other kinds of tools are a battle space visualization 
capability so that people managing tactical ISR assets in 
theater can find out ahead of time what the national assets 
will be doing, and they can apply, then, theirs more 
effectively so that they are not redundantly covering targets 
that the national assets will be picking up.
    We have a capability that we have deployed to support human 
operations in the field. It obviously has an acronym, THREADS. 
You wonder what that means. It is threat HUMINT reporting, 
evaluation, analysis and display system. It is a mouthful, but 
the point is it enables the integration of national technical 
collection with what HUMINT capabilities are doing. And 
remember, one of the most important things for HUMINT is the 
problem of asset validation. Did the asset really go where they 
said they would go? And at times we are able to provide the 
kinds of capabilities that allow an answer to that question.
    We have a deputy director for military support. He is an 
active duty general officer from the Air Force. He serves a 
dual role. Not only does he support military activities from 
the NRO, he serves as the J-5 on the Joint Staff as well. That 
gives us a very strong coupling to the uniform side of our 
Department of Defense.
    It is a time of challenge for us nonetheless. I think we 
are well recovered from where we were on FIA, but we still have 
to deliver on other parts of that program as well as a number 
of other challenges, plus continue to operate the systems that 
we have today.
    Just as a factoid of possible interest, we spend about 50 
percent of our resources on acquisition, about 20 percent on 
operations, and the balance for research, development and the 
other kinds of things we do. So while we are skewed toward the 
cost of acquiring space systems, which are expensive, there is 
a significant component that goes with operations as well as 
launch and other activity.
    I hope that there is an opportunity in the future to share 
with you some of the specifics of our systems, either by 
appearing here or by inviting you to visit with us or one of 
our ground stations.
    In the meantime, I will conclude my opening remarks at this 
point and welcome your questions.
    [The prepared statement of Dr. Kerr can be found in the 
Appendix on page 56.]
    Mr. Everett. Thank you very much.
    General Klotz.

  STATEMENT OF LT. GEN. FRANK G. KLOTZ, COMMANDER, AIR FORCE 
   SPACE COMMAND, DEPARTMENT OF THE AIR FORCE, U.S. AIR FORCE

    General Klotz. Thank you very much, Mr. Chairman. I 
appreciate the fact that you will place our written statement 
in the record. I suspect we are probably the one with the half-
pound statement that you talked about before.
    Mr. Everett. General Klotz, I didn't say that at all. 
[Laughter.]
    General Klotz. I have had an opportunity to see the other 
two, so----
    Mr. Everett. But we are pleased to have you here following 
in the general's footsteps, and we look forward to working with 
you.
    General Klotz. Well, thank you very much, Mr. Chairman, 
although I will take issue with you. I don't think anyone can 
follow in that great man's footsteps. And he----
    Mr. Everett. I won't deny that either.
    General Klotz. That is right. He was honored at the 
legislature of state of Colorado two days ago, which I had an 
opportunity to attend, and he asked me to pass on his warmest 
regards to you, sir.
    It is a great privilege and honor to appear before you, Mr. 
Chairman, and the other distinguished Members of this 
subcommittee. I am also delighted to share this opportunity 
with two great Americans, each a respected leader and 
acknowledged expert in the space enterprise, Dr. Sega and Dr. 
Kerr.
    I am also proud to represent the nearly 40,000 men and 
women of Air Force Space Command stationed around the world, 
standing watch 24 hours a day, 7 days a week, 365 days out of 
the year.
    At this moment, this fully integrated team of active duty, 
reserve, guard, government, civilians, and contractors are 
delivering space effects to joint warfighters as well as civil 
and commercial customers.
    Our space professionals accomplish this by planning, 
operating, maintaining, securing, supporting our nation's 
Minuteman III intercontinental ballistic missile (ICBM) force. 
They fly our communications early warning weather and precision 
navigation and timing satellites.
    They monitor the ground-based radars and other sensors that 
provide early warning and locate and track thousands of objects 
in space. And they assemble and launch boosters and maintain 
the ranges for the launch of our satellites.
    And finally, they develop and acquire the next generation 
of space and missile systems to help ensure America's strategic 
commercial and scientific advantage in space well into the 
future.
    Along with our colleagues in the National Reconnaissance 
Office and across the entire national security space 
enterprise, the men and women of Air Force Space Command 
represent the best and brightest of our nation's sons and 
daughters, and we have every reason to be proud of them and 
their service to this country.
    Air Force Space Command has witnessed several milestones 
and made significant progress since this subcommittee last met 
to discuss our nation's space posture. Over the course of the 
past year, we deactivated the Peacekeeper intercontinental 
ballistic missile while maintaining a safe and secure strategic 
deterrent.
    We conducted the 44th consecutive successful launch, which 
broke a previous launch record set in 1971. We launched the 
first global positioning system satellite IIR-M, providing 
additional civil and military signals and increased power. And 
we provided critical space capabilities, as Dr. Sega said, to 
the relief operations following Hurricanes Katrina and Rita.
    And while we have made good progress over the past year, 
there is still much left to accomplish. And toward that end, we 
are focusing on four strategic priorities. The first is 
securing the space domain and providing space combat effects to 
the joint warfighter. Second is to maintain a safe and secure 
strategic deterrent and to pursue new Terrorism Risk Insurance 
Act (TRIA) capability for the United States and its allies. The 
third is to make space acquisition a DOD model for acquisition 
excellence. And the fourth is to provide world-class 
professional development and quality-of-life opportunities for 
our people.
    These priorities are not only the right direction for Air 
Force Space Command, but they are also in line with the 
priorities of General James Cartwright, the Commander of United 
States Strategic Command. In fact, supporting the warfighter is 
at the heart of everything we do in Air Force Space Command.
    The asymmetric advantage that space provides is a critical 
lifeline to those who are in harm's way each and every day. For 
that reason, it is more important than ever to maintain our 
technological edge.
    Today we operate the most capable GPS constellation in 
history. Additionally, our meteorological space warning and 
military satellite communications are surpassing expectations 
both in terms of capability and service life.
    They will not, however, last forever. In a sense, we are 
approaching a crossroads in providing space combat effects for 
the warfighter.
    As the average age of our constellations reach their or 
exceeds their design life, we must maintain our commitment to 
the next generation of systems that provide for communications, 
precision navigation and timing, missile warning and related 
capabilities, weather, and intelligence surveillance and 
reconnaissance. These are all essential to meeting the demands 
that will be placed on the warfighters in the future.
    Let me shift gears for just a moment, if I could, to 
discuss another important aspect of Air Force Space Command's 
mission, and that is the operation of the nation's ICBM force. 
The size and composition of our ICBM force continues to evolve 
in response to the changing strategic environment.
    Following the signing and ratification of the Moscow 
treaty, Air Force Space Command began the process of 
deactivating the nation's 50 Peacekeeper missiles in October 
2002. In September of last year, we removed the last 
Peacekeeper missile from its launch facility, ending a proud 
chapter in our ICBM history.
    Now, even though we deactivated the Peacekeeper missile, 
the ICBM continues to be an integral part of our nation's 
strategic deterrent. In the words of our Air Force chief of 
staff, General Moseley, our ICBMs are the backstop of all our 
military forces. For this reason, Air Force Space Command is 
committed to ensuring that the Minuteman III missile remains an 
effective and a viable weapons system through the year 2020. 
And thanks to the strong support of this subcommittee and the 
Congress as a whole, we have continued to make steady progress 
on the propulsion replacement program, the guidance replacement 
program, and the propulsion system rocket engine service life 
extension.
    We also, since this committee last met on this subject, 
conducted three successful test launches of the safety-enhanced 
reentry vehicle which will allow us to deploy the warhead used 
on the deactivated Peacekeeper ICBMs on portion of the 
Minuteman fleet.
    While space and missile systems continue to provide some of 
the most cutting-edge capabilities, they would be useless 
without trained, equipped and motivated space professionals. 
Over the past 12 months, we have also undertaken several 
initiatives to enhance the career development of space 
professionals in the Air Force, but also in the Army, Navy, 
Marine Corps and the NRO.
    The National Security Space Institute located in Colorado 
Springs now has a two-star chancellor, a reserve associate unit 
to augment the staff, and a multiservice faculty with 
representatives from NASA, the Defense Acquisition University 
and the NRO either on board or soon to join us.
    The school will offer courses to more than 2,000 students 
in this fiscal year with Space 200 and Space 300 as its 
foundation programs. At the same time, the Space Education 
Consortium led by the University of Colorado at Colorado 
Springs, and comprised of 10 participating universities and 
institutes, both in the United States and one abroad, will 
serve as our primary source for civilian space-based education 
programs.
    Finally, in November we pinned on the first new space 
badges which are a powerful symbol of how we are forcing Air 
Force Space Command for the future.
    With your continued strong support in these and other 
endeavors, I know we can meet the challenges currently 
confronting the space enterprise and continue to deliver the 
space combat effects that are vital to the joint warfighter and 
to the nation.
    Again, Mr. Chairman, I am honored to appear before you and 
this distinguished subcommittee. I look forward to your 
questions and working with each of you in the year to come.
    [The prepared statement of General Klotz can be found in 
the Appendix on page 66.]
    Mr. Everett. Thank you very much.
    Some housekeeping things here. I have been notified the 
votes have been postponed until 4 o'clock, so we do have some 
time to work here.
    And let me begin by first saying that I am not going to 
talk a lot about space cadre. We will have some questions that 
I will submit for the record. Of course, other members are free 
to talk about it or submit questions or whatever.
    There are some other things that, in the interest of time, 
that I want to get to. And so I will give you some questions 
about that and, as I said, other members may want to use their 
time to talk about that, or they are free to submit questions, 
either that they choose.
    Some of the things that we have been concerned about are 
the extreme overruns in cost. I think SBIRS-High was supposed 
to be $2 billion. I think we are currently just under $5 
billion. And I think that the target is now that it would be in 
the neighborhood of $10 billion or more before we get there.
    I would like to point out with the new alignment of SBIRS-
High I and II, and then, Dr. Sega and Dr. Kerr, if you could 
talk to us a little bit about the advanced infrared satellite 
system (AIRSS) and how that relates and may fit into SBIRS-High 
should it be decided not to go forward with SBIRS III.
    Dr. Sega. Mr. Chairman, out of the Nunn-McCurdy process, 
the certification that the Secretary made was that we would 
finish the engineering and manufacturing development (EMD) 
phase on those first two satellites, GEO-1 and GEO-2, that we 
would look at the performance, and progress and development of 
GEO-1 as one of the factors to decide on the going forward in 
production on GEO-3.
    In parallel with that, the current activity, we would look 
at alternatives for an infrared space system, a IRSS, and we 
are in that process of looking at the technologies that would 
be viable to achieve the necessary missions on SBIRS.
    We may, in fact, take a similar block approach in terms of 
SBIRS, in terms of a system that is able to evolve to full 
capability in time. That is work in progress. We have several 
studies that are going forward, getting us prepared to engage 
in the fiscal year 2007 time frame. We, I believe, have roughly 
$100 million in the budget for the AIRSS program going forward.
    Some I think are exiting options. We could provide details 
on that also offline. But the work toward a follow-on program 
that is designed with currently available technologies at the 
maturity level that is consistent with the system production 
phase. Shorter acquisition cycle times is our approach on the 
alternative system.
    Mr. Everett. Well, on the advanced infrared system, I 
assume that there is an awful lot of lessons learned that we 
can gather from the current system that we have, from SBIRS-
High. Are we incorporating stuff into that, or is it going to 
be a completely new system?
    Dr. Sega. No. There is certainly some lessons learned in 
the technology part. But more fundamentally, it is in how we 
approach this system acquisition itself. And looking at the 
technologies that are matured, we have gone a long ways in some 
of the sensor-related work.
    We have invested a number of years, and they are in the 
later stages, if you will, of the systems development that 
would be appropriate then to look at the systems engineering 
and integration into a full system.
    So I think technology has moved a great deal in the last 10 
years, particularly in these sensing areas, and I believe that 
a simpler systems design is possible. With technology that has 
evolved, it would be mature at the time that we would decide to 
integrate it into a full system.
    So it is more of an approach to acquisition from the SBIRS 
program. We will once again start with mature technologies, 
incorporate good systems engineering, design for test 
stability, design for modularity, design for it to be upgraded 
in time, have more people in the plant, achieve standards in 
those things that are part of the back-to-basics approach.
    So I think the lessons learned is the approach to the 
design and build.
    Dr. Kerr. If I might just supplement what Dr. Sega has just 
told you, I can tell you that the NRO is working closely with 
the Air Force to share information, capabilities and 
developments that we have invested in over a number of years.
    Another piece of this is that while SBIRS as construed 
really fit a Title 10 mission, at the NRO you see both the 
Title 10 and Title 50 authorities and responsibilities. And so 
while there is the launch warning and assessment mission that 
is absolutely number one, there are also missions that relate 
to battle space characterization, technical intelligence and, 
perhaps, support to the Missile Defense Agency (MDA).
    And so one of the things we are trying to do is be the 
method by which some of these other needs are brought to the 
table as the different technical approaches are discussed.
    And so in doing that, we are working very closely with the 
Air Force, not to skew it into a great, complicated platform 
and system, but to see how much of the mission, in fact, each 
of the proposals might deal with.
    Mr. Everett. Also, the committee has a great interest in 
some of the problems that you are facing concerning, for 
instance, personnel. And I know you are in discussions, so 
would you describe the situation as it exists? As I understand 
it, we have got one pot of folks, and we have great need in two 
different locations.
    And I know that you are working hard, and I am not asking 
you to say how you are trying to solve that. I would like for 
you just to describe the situation.
    Dr. Sega. Sir, I will take a shot at that and hand it off, 
because I think there is pieces of it that are important to 
bring forward from each perspective. As it turns out, Don Kerr 
and I co-chaired a national security research and development 
subcommittee during our previous jobs.
    We have been working on science and technology and 
workforce related issues for about four years now. And one of 
those areas that came out of our work on that subcommittee that 
then was sent up to the National Science and Technology Council 
was the need for a workforce for particularly critical skills 
for clearable people.
    Some of the work on the interagency, which we led not just 
our own organizations but others in government, identified also 
areas that they would see as people retired needing, you know, 
additional support.
    And so a longer-term answer is a--and we have taken the 
first couple steps as a more proactive way of getting 
additional people that are clearable to pursue studies in math, 
science and engineering.
    The national defense education program was submitted last 
year and approved by Congress in its entirety and this year it 
is coming forward at roughly double the requested funding from 
last year, to look at a mechanism of starting to increase the 
pipeline--math, science and engineering--at the undergraduate 
and master's and PhD levels, as well.
    We also have several forums set up to look at this problem, 
not only in space, but the broader community. One of those in 
the space area is the Space Professional Oversight Council. We 
co-chair that, and we look at the status of our space 
workforce, and we look at methods of helping with that.
    One of the initiatives that was from General Lord was the 
National Security Space Institute. I have had a chance to be 
there. I think Dr. Kerr actually has taught one class in there. 
And I will let General Klotz talk more about the efforts, once 
people are in our programs, to enhance their knowledge of 
space.
    We are looking at a method of helping manage this precious 
career field and the people that are in it. As chief of staff, 
General Moseley has stated the number of people in the 
acquisition area in the Air Force--and I believe it applies a 
little more broadly--needs to increase.
    And so we are looking at increasing the talent in the 
acquisition workforce and focusing on the experiences they will 
get as they mature in time as part of the answer to your 
question.
    General Klotz. Sure, if I could, Mr. Chairman, as Dr. Sega 
said, General Lord took a number of initiatives when he was the 
commander of Air Force Space Command to broaden the entire look 
of space professionals.
    And we have meticulously, in the last year or so, gone 
through and identified all the folks who fall into what we 
would call the credentialed space professional pool to include 
not only operators but acquisition professionals, and including 
folks not just in the Air Force but also in the other services 
and the NRO. So we have identified each of those individuals. 
We track them on a sheet like this, which happens to be my 
sheet, that lays out the duty history of each individual who is 
one of the slightly less than 10,000 people who are being 
tracked.
    In addition to that, one of the things that we have done 
between the NRO and Air Force Space Command is we now have 
joint squadron commander selection boards where, as we are 
choosing the candidates for squadron command in Air Force Space 
Command squadrons, we are also reviewing those eligible NRO 
members not only to command our squadrons but also to be used 
by the NRO in like positions.
    In addition to that, at the colonel level, NRO members are 
also considered by a central Air Force board which identifies 
those officers who are best qualified to command at the colonel 
level.
    As Dr. Sega pointed out, at the National Security Space 
Institute in Colorado Springs, we have NRO students but, in 
addition to that, NRO guest lecturers and, as I said, a member 
of the faculty soon to join us.
    We also talk on a number of occasions, Dr. Kerr and I have 
chatted on the telephone about the assignment of one individual 
or another individual to a particular position, and have always 
come to amicable outcome in terms of the best place to put that 
person both for the Air Force, the NRO and the broader national 
security space enterprise.
    And as you indicated in your prefatory remarks there, we 
are in the process of discussions now about how we continue to 
work the personnel issue. Probably the biggest single issue 
facing us is balancing experience levels across the workforce.
    As General Hamel, who is sitting behind us, would tell you 
out at Space and Missile Systems Center (SMSC), he has a lot of 
young lieutenants and captains who are performing duties out 
there in the acquisition field. He would like to have more 
experienced and more senior acquisition specialists at SMC, so 
we are talking about ways in which we can balance this 
workforce across the entire space enterprise.
    But those discussions are still ongoing, and we will be 
happy to let you know what the outcome of those are when we 
complete them.
    Mr. Everett. Mr. Kerr.
    Dr. Kerr. I think it has been generally well covered. One 
of the things we have done is tried to accommodate our civilian 
workforce and track them in the same manner that space command 
has done with their military personnel.
    One of the advantages we have is that we have a significant 
civilian component to our workforce. They tend to be with us 
for a greater part of their career, and they provide us the 
momentum or, if you will, the flywheel as we also contend with 
the shorter average military tour of duty with us.
    The kinds of things that we are talking about include ways 
in which SMC, for example, could have similarly well qualified 
career civilians to help them in the same way that we have come 
to experience that and see value in it.
    I think the most important thing to tell you, however, is 
that the chief of staff, General Moseley, has himself taken a 
deep interest in our working through this, to the point where 
he joined us just a week or so ago in discussion on the way we 
would create the trade space for decision.
    He handed the responsibility to General Klotz and others of 
us are supporting him and working through that. We look forward 
to the conclusion and reporting to you.
    Mr. Everett. Thank you very much.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, the operationally responsive space program was 
created by DOD's Office of Force Transformation, basically to 
create a new business model for developing and employing space 
systems.
    The aim was to rapidly deliver to the warfighter low-cost, 
short-term joint tactical capabilities defined by field 
commanders, capabilities that would complement and augment 
national space capabilities.
    ORS would also serve as a test bed for the larger space 
program by providing a clear path for science and technology 
investment, enhancing institutional and individual knowledge 
and providing increased access to space for testing critical 
research and development payloads.
    The questions I have are the following. According to a 
recent GAO report, as I stated in my opening statement, the 
future of TacSat program is in danger because DOD lacks a 
department-wide strategy and leadership for implementing 
efforts in this very critical area.
    So what actions can you point to that will assure the 
committee of DOD's commitment to the transformational concept 
of operationally responsive space (ORS)? And if additional 
funding were made available for the ORS program, what would be 
your highest priorities for spending that money?
    Dr. Sega. Congressman Reyes, if I could step back a bit 
historically, prior to August 4th of last year, I was director 
of defense research and engineering. And one of the three 
initiatives that we had in the Department of Defense overall 
was that of the national aerospace initiative.
    And it had three pillars, high-speed hypersonic space 
access and space technology. And space access was the emphasis 
providing new technologies, a new way of accessing space. And 
the focus was on the small side, the small launch vehicle.
    In the space technologies, if you are going to be 
responsive with respect to the booster, you also need to be 
responsive with respect to the satellite. Once it is on orbit, 
you need to design it such that the checkout time is reduced, 
the time to do the confirmation systems are working, the out-
gassing and so forth should be minimized.
    We worked hard on that. I worked with Admiral Cebrowski 
throughout that period of time, and DARPA was part--Deputy 
Director Research & Engineering (DDR&E)--and engaged in the 
Falcon program, a joint effort with the U.S. Air Force.
    As to the Falcon program--space on the small launch vehicle 
was founded and began its work. They had four competitors, and 
now there is, I believe, currently two within the next phase, 
and if the others proceed up they may also join them. So that 
is on the launch side.
    On the spacecraft side, we are looking at the overall 
strategy, as you have pointed out, that is important. But we 
are doing it in a little different way. We are looking at it in 
terms of small sats on the satellite portion.
    One portion of that small satellite family would be 
TacSats, the tactical support to the tactical commanders. So 
there is a new need for some reason and you need go on quickly.
    The next area is smaller satellites that could form the 
role that we need 24/7, a normal part of the constellation, if 
you will--space-based surveillance system may be part of that 
smaller satellite. We may have an opportunity to look at a 
smaller sat application as we talked before about the AIRSS 
program.
    Small sats have a role of filling our needs in a 24/7 
global constellation in addition to the TacSat for a new need 
for the tactical commander.
    In both cases, an operational responsive system could 
provide the reconstitution capability both for TacSat as well 
as for small sat in their constellation.
    The third area is in this grouping in the second and third 
lines of systems development and technology development. We may 
need to fly a small sat with some of that technology on board 
to do the technology maturation to move a technology, say, from 
the development stage into the systems development.
    And it would benefit from a ride on a small sat and do the 
work in space. And the fourth area is more exploratory work in 
science and technology.
    So we are forming the strategy of the small satellite value 
in many areas, I believe, going forward to the Department of 
Defense in space. One of those would be TacSat. So I believe 
that is an important component.
    General Klotz. Dr. Sega gave a very comprehensive answer. I 
would just add to that that while, on the one hand, we 
recognize the great value and contribution that our large 
constellations of GPS satellites, communications satellites, 
national systems contribute to the warfighter, we in the Air 
Force, under the leadership of our previous chief of staff, 
General Jumper, and our current chief of staff, General 
Moseley, recognize that there is a need on the part of the 
combatant commanders, the theater commanders, to have 
capabilities that might be delivered from space in a much more 
rapid turnaround time than it takes to develop some of these 
larger constellations in order to augment their capabilities in 
terms of communications or intelligence, surveillance and 
reconnaissance.
    So from a military perspective, this is a very important 
and very intriguing and, at the same time, very challenging way 
to provide that kind of capability, to be able to turn the 
capabilities both in terms of the launchers for these types of 
systems, the satellites themselves, and equally important and 
sometimes overlooked, the command and control of those 
particular satellites once they are up and on orbit.
    Mr. Reyes. And the prioritization should there be 
additional funding? Would it be divided, or it would be 
proportional, or----
    Dr. Sega. That would be part of our study going forward. I 
believe it should have a greater role in our look forward in 
space, and so we are in the process of reviewing and going 
through the initial parts of our fiscal year 2008 budgetary 
process, and so that has already been an area of discussion, so 
I would look at that as having a more prominent role as we go 
forward.
    Now, each of the services have needs, and the ground 
component may need augmentation from comm, and that may be from 
an Army, you know, derived--or CENTCOM or other combatant 
commander-derived need.
    And so we are--because we have the participation of the 
Army, Navy and Air Force, and there are many technologies that 
also are similar in value to NASA as well as the NRO. So we are 
doing this more in an across-the-board look at how we bring the 
technologies in the small satellite to greater capability.
    TacSat-3, for example, being done in Albuquerque today is a 
very modular approach to the development of the satellite, so 
it would provide many of those flexibilities and that sound 
engineering and agility to accommodate various payloads within 
the design of the bus for future application potentially across 
the board.
    Mr. Reyes. I guess the other question that comes to my mind 
as a result of this multilayer strategy that you have set out 
is operationally, what lessons have we learned, again, I guess, 
from the experience particularly in the Middle East the last 
two and a half years, three years, the requirements for 
capabilities to respond on a short-term basis to other emerging 
threats? Would that impact the prioritization even as you have 
described it?
    Dr. Sega. I think it would be a factor, yes, in the 
discussion that goes forward, but we are also looking at how 
that satellite, for example, would fit into other capability, 
whether it would be enhancing other satellite systems as well 
as enhancing potentially our airborne assets, as well as 
potentially those on the ground.
    So how that would fit and potentially leverage other assets 
in space as well as air and ground, and so it would be a larger 
and a holistic look at the solution to a problem.
    Mr. Reyes. And if we are getting into an area that we 
shouldn't publicly, please let me know, but what I am trying to 
get at is not just the coverage but the capabilities that would 
be required based on lessons learned particularly in the Middle 
East, but also given the threat and, I guess, the composition 
of what combatants on the ground would require.
    I don't know if I am explaining this correctly, but if 
there is a requirement in a particular area, and we know we 
have got coverage for force protection purposes to the Middle 
East, the--what I am trying to understand is if we provide 
additional resources, is there a prioritization of those kinds 
of capabilities based on the requirements?
    You know, it could be something like a launch out of a 
place like North Korea. It could be something like a new 
emerging threat out of Iran for both for our forces or, 
perhaps, one of our allies. Is there thought being given to the 
kinds of capabilities that purely the small satellites and the 
tactical satellites bring to bear tactically in those 
requirements?
    Dr. Sega. Let me try and then maybe hand it off to either 
here. I think what----
    Mr. Reyes. And if you are not comfortable--if we are 
getting into an area in terms--because I realize the chairman 
and I sit on the intelligence committee, and I know there are 
times when we shouldn't speak publicly about some of those 
capabilities.
    But the bottom line that I am trying to get at is that we 
do have a prioritization based on lessons learned, based on 
potential threat, and based on maybe even the unknown, because 
we are dealing in a realm here where----
    Dr. Sega. Right.
    Mr. Reyes [continuing]. You know, Iran, North Korea--who 
knows----
    Dr. Sega. Yes, let me try it----
    Mr. Reyes. Okay.
    Dr. Sega [continuing]. And see if--and then I will ask for 
some help here. But I think we have begun working the 
acquisition community closer and closer with the warfighters.
    Our forums that are including General Cartwright on nearly 
all of them in terms of whether it be a space partnership 
council or a stakeholders meeting to understand what space can 
provide--I was with Undersecretary of Defense Ken Krieg 
yesterday and he asked when the next stakeholders meeting was 
going to be, to see if they could get up to what space 
capabilities would be provided.
    But they are a critical part of helping determine what our 
priorities are. And so it is the dialogue that is important. So 
when we ask what they need, they are also asking what do you 
have. And so it is that discussion back and forth that is very 
useful.
    For example, and it is a larger sat example, obviously, but 
TSAT--in arriving at block one to the Quadrennial Defense 
Review process, and with the warfighters, we have reduced some 
of the laser communications capability, but we increased by a 
factor of three, I believe, the K.A.-band R.F. communications 
capacity on the first block of the TSAT satellite.
    And so the trade space was done with the user, with the 
warfighter, to determine what technically should constitute a 
block one. I believe a very similar process, though fast in 
this case, would be done in terms of what would be needed in 
the small sat arena.
    And I would turn it over to see if General Klotz or Dr. 
Kerr would have comments.
    Dr. Kerr. Because you also have participated with the House 
Intelligence Committee, I think you're familiar with the 
national intelligence priorities framework. And we have briefed 
you on that. And one way to think about the way we go and test 
our ideas about new capabilities--on the policy side, we tend 
to start with that framework and then work through to specific 
suggestions.
    On the support to military operators, we are driven by 
inputs from STRATCOM, from our deployed people in the field 
working with the command, and of course our connection to the 
Joint Staff, which gives us another visibility.
    And what we try to do is deal with issues of access, 
timeliness, precision location, acquisition, discrimination--
what are the attributes that are needed in a system that we 
might develop in the field. And so we have the two different 
frameworks, because to some degree the support to operations is 
a different part of the business than the support to policy 
makers.
    In operations we don't distinguish actually today between 
the military operator or an intelligence operator. Their needs 
for timeliness and accuracy are just the same. But it is the 
timeliness that really characterizes the support to operators 
as distinct from some of the support to policy makers.
    General Klotz. If I could add something, sir, we have, as 
Dr. Sega pointed out, been working very, very closely with the 
other services to determine what their needs are, what their 
priorities are. We are doing this in Air Force Space Command 
under a program called joint warfighting space. And I will talk 
a little bit more about that in a moment.
    But we have worked closely with the Army. We have worked 
closely with special operations command. And we are currently 
very much involved with an exercise called joint expeditionary 
forces experiment, or JFEX, which is testing out some of these 
concepts that I talked about before, particularly the command 
control aspects of it.
    And I think I can safely say that there are to be two areas 
that our warfighters are telling us that they might like to see 
additional capabilities or augmentation, and that is in the 
area of communications, particularly beyond-line-of-sight 
communications--if you are running a convoy in Iraq, or you 
happen to be in a mountainous area and you can't communicate 
directly because of the mountain that is between you and who 
you want to talk to.
    The other area is intelligence, surveillance and 
reconnaissance, but we probably should leave that to another 
setting.
    Now, a lot of these capabilities, particularly in the area 
of communications, again, are met by some of our larger 
systems. The military forces--Army, Navy, Air Force, Marines--
do need a lot of bandwidth. They do need a lot of throughput in 
terms of communication. They need communications that are both 
secure and protected that can't be easily jammed by an 
adversary.
    And so that is why, as we work through some of the follow-
ons to the defense satellite communications system, the DSCS 
satellites, as well as the MILSTAR satellites, that is why we 
are increasing bandwidth, increasing capabilities, increasing 
throughput to do that.
    But there still may be a need for a simple, low-cost, low-
weight radio repeater that could provide that sort of beyond-
line-of-sight capability within the theater for a particular 
mission on a particular day.
    We are approaching this from two directions. I should add 
that it is not only operationally responsive space, but we are 
also looking at platforms that can operate in the regime 
between where aircraft normally fly and where satellites 
normally orbit, that regime between 65,000 feet and 300,000-
plus feet.
    So we are doing some work again with these same partners, 
Army, special operations command, to look at balloons or winged 
vehicles that can again provide those kind of capabilities, not 
to replace what is on orbit, and not to replace what is 
provided by aircraft operating closer to the earth's surface, 
but to complement and to augment those capabilities for a 
particular type of mission.
    Mr. Reyes. Very good.
    Thank you, Mr. Chairman.
    Mr. Everett. Mr. Spratt.
    Mr. Spratt. Thank you all for your testimony. I think you 
would agree that we are beginning to see the defense budget 
tighten. You can see it in your own Air Force budget--the C-17, 
where the system will probably be stopped at the end of its 
current production run.
    The F-22 is down to 179 airframes now, which is minimally 
adequate. There will probably be further reductions in the F-
35. Looking at that, you have got a budget here that seems to 
be going in the opposite direction. It seems to be growing as 
opposed to shrinking.
    And I guess that is one concern we have about the potential 
for overruns, because the history of these systems shows that 
they are prone to overruns. On the space-based radar in 
particular, I think last year's estimate for the nine-ball 
option was $34 billion. That was life cycle cost.
    Can you make the case for the space-based radar in light of 
the fact that it can't be used easily in urban areas due to 
clutter or in rural areas due to foliage and things of this 
nature? Is it worth $34 billion in light of the things we are 
having--the tradeoffs we are having to make elsewhere in the 
Air Force's budget?
    General Klotz. Let me start. I will make the military case 
for it, and I will let Dr. Sega make the business case of that.
    The military case--if we go back and take a look at the 
last two major conflicts in the Gulf region, one of the great 
advances was the moving target indicator capability provided by 
the Joint Surveillance Target Attack Radar System (STARS) 
aircraft, where you actually had the ability to watch convoys 
at night, in the dark or in dust storms, moving down and 
approaching our forces as they were moving up into Iraq.
    That type of capability was, in some sense, 
transformational. Now, the problem with that in any future 
conflict is you may not be able to move an aircraft into a 
denied area or a closed area in order to provide that type of 
moving target indication to the ground commander or the air 
commander.
    So the ability to have a platform that has greater 
persistence and can provide you that kind of capability in a 
denied area is one which is of great interest to the theater 
commanders.
    Dr. Sega has gone around and talked to a number of our 
combatant commanders, and universally they have said this is 
the capability which they need.
    Dr. Sega. And in particular, we visited PACOM, STRATCOM, 
NORTHCOM, SOCOM and CENTCOM and asked them precisely the 
question you have asked. I think it is important to view it in 
the context of how it supports our capability in space and, 
again, with airborne and surface-based platforms.
    And it is that leverage that it would provide if there is a 
moving target indication similar to Joint STARS, as General 
Klotz just pointed out, then you are using other assets in a 
very effective way, because you know where to go, because you 
have been tipped off by the moving target indication function.
    Open ocean surveillance ends up being more and more 
important. From PACOM and the Joint Staff and NORTHCOM, the 
ability to look over vast regions ends up being more important.
    Mr. Spratt. When we had SBIRS-Low and its previous 
configuration, one of the characteristics of SBIRS-Low was to 
be battlefield characterization. That was typically listed as 
for--was sort of a lagniappe, because the transformation had 
nothing to do with that, but the idea would be that the 
tactical user would be able to tap the system and bring 
tactical battlefield characterization and information down 
where it could be used.
    That particular type of interaction between the tactical 
user and the satellite was eventually dropped from SBIRS-Low. 
As you read the description, as I understand it, of the space-
based radar, while it will give you moving objects, you won't 
be able to distinguish with great resolution among those 
objects.
    And picking up one object and following it might be okay, 
but you may not be able to tell the difference between a 
garbage truck and a tank, as I understand it.
    Dr. Sega. The details of the capability we are looking at 
in space radar is something we can present at a different 
forum.
    But the technology going forward--we have been building 
electronically arrays for decades now and they are in our F-18. 
They are in the F-22. They are going to be in the joint strike 
fighter. So we have made a great deal of progress in terms of 
our knowledge of and use of radar.
    Space-array radars go back to, you know--and before in 
terms of where we are at. How they fit in and their value added 
is going to be also done through this process that we arrived 
at at TSAT.
    Currently, Admiral Giambastiani and the Joint Staff, 
through the cocomms are looking at what would constitute a 
block one space radar, and how does it fit and add value into 
the total warfight.
    And so we will be working closely with them as we go 
forward and mature the technology.
    Mr. Spratt. The light is buzzing there, but could I ask----
    Mr. Everett. Go ahead, John.
    Mr. Spratt [continuing]. One last--switching to a totally 
different subject area, and that is all of these systems--the 
payload are extremely expensive and, as I said, prone to cost 
overruns. But there is another expensive aspect, and that is 
lift.
    And over the years, the Air Force has sought to reduce the 
cost of lift, but it has proved to be an elusive goal. Could 
you tell us where you are with respect to your efforts to 
reduce the cost of lift? I understand it takes about $22,000 to 
lift a single kilogram into orbit presently.
    Dr. Sega. I will answer it in two areas and maybe turn it 
over as well. We recognized the issue in the 1990's and 
expended money toward the development of the evolved expendable 
launch vehicle, EELV, and we have systems now that the 
development cost and the launch costs are reduced from what we 
had before.
    It is still expensive. I understand that. But it is more 
common interfaces and so forth between the EELVs, the Delta 
Force and Atlas 5s. We are also pushing on the smaller side.
    I think there is a lot of opportunity, as Congressman Reyes 
pointed out, in terms of pushing operational responsive systems 
or just lower cost launch access to space. And so that is in a 
parallel program that the department has been engaged in for a 
number of years.
    But cost to orbit and reliability and mission assurance to 
orbit is critically important.
    General Klotz. I wouldn't add anything, except just to 
underline Dr. Sega's last comment there, that, of course, 
mission assurance and mission success are absolutely critical 
to doing that. And as I stated in our opening statement, we 
have had 44 successful launches in a row which ties the all-
time record back in the early 1970's.
    So it is something that is a difficult, complex task in 
undertaking, and there are some expenses associated with that, 
costs associated with that.
    But as Dr. Sega said, with the current family of vehicles 
under the EELV program, and the exploratory work--the 
demonstration work that is being done on some smaller things, 
the hope over the longer term is to drive down costs and to, at 
the same time, maintaining assured access to space.
    Mr. Everett. Do you have another question?
    Mr. Spratt. One more question, just a comment on a 
question. You sit here 23 years, you see things come and go in 
cycles and things like that.
    You remember General Abrahamson, of course. A key component 
of his trying to make the space-based elements of Strategic 
Defense Initiative (SDI) affordable was to bring launch costs 
down by an order of magnitude, which we aren't even close to 
approaching.
    And there were specific programs to do that, so I was just 
observing it seems still to be a very difficult goal to attain. 
I guess that is a fair summation. Could you tell us what you 
can on the open record about space weapons, space counter-
space? Maybe you can't tell us much on the open record.
    Dr. Sega. I would prefer to take that for the record.
    [The information referred to can be found in the Appendix 
beginning on page 102.]
    Mr. Spratt. Okay. That is fine. I am sorry we couldn't get 
together yesterday, but I appreciate your diligence. We will do 
it again some time. Thank you very much.
    Mr. Everett. John, we are going to have a closed hearing--
--
    Mr. Spratt. Yes, okay.
    Mr. Everett [continuing]. Briefing on it later.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I apologize for being 
late.
    I am assuming from the acquisitions stages block approach 
that you have addressed some of the just general questions 
about acquisition programs in space and the concerns expressed 
last year and over the year about cost and so on.
    And I don't know if this refers specifically to TSAT, but 
can you describe the status of the program on TSAT? And can you 
give us, say, over the next 12 months what are some key events 
that will exist in the TSAT program that will give us here in 
Congress some ability to measure the progress and gain some 
confidence in that program?
    Dr. Sega. I will try to do this from memory and, you know, 
I will follow up with more details.
    [The information referred to can be found in the Appendix 
beginning on page 107.]
    Mr. Larsen. Sure.
    Dr. Sega. But the TSAT program, as was observed not only 
from Congress and GAO but our own internal work, had parts of 
the program that were doing well with regard to maturing of the 
technologies and some that were a bit behind.
    And in looking at that and working with the warfighters, 
identifying what is needed when, we developed, you know, the 
block one, block two approach. And those technologies that we 
deem that would be best served in a later block include some of 
the higher-end laser capabilities as well as the advanced 
processor router.
    We will still have a router. We will still have laser comm. 
But it won't be at the sophistication as was originally 
envisioned.
    Now, over the next 12 months we will have a number of 
demonstrations and tests that demonstrate that the technologies 
in block one will be at the T.R. level six by next February 
7th. So we are on a track to--there is a couple, and I believe 
one is laser and one is the router, that are at five, and we 
are on a path to move them to six.
    And the first phase should be completed in the next few 
weeks that assures that we have confidence, you know, at this 
earlier stage. So that is part of it.
    The other is in systems definition, look at the ground 
segment requirements review. We let the contract for TMOS here 
in just the last few weeks, but in the next few months have 
that definition of systems requirement. That will actually help 
define the space segment.
    We will look at the standards and specifications required 
in the space segment and see how much that we can actually do 
on the ground segment and how it interfaces with the rest of 
the global information grid.
    So the next milestone down about a year from now will be an 
overall system design review for TSAT, so that takes us out to 
April 2007. And with that is the space segment system design 
review, also April 2007.
    And then looking at, if everything works out with regard to 
the technology, at a space segment RFP released around May of 
2007.
    Mr. Everett. Rick, I would appreciate it if--we have 
covered----
    Mr. Larsen. Yes, sure.
    Mr. Everett [continuing]. And in the interest of time and 
the other members' time, I would appreciate it if you would----
    Mr. Larsen. Yes.
    Mr. Everett. I appreciate it.
    Mr. Larsen. Yes, will do.
    Mr. Everett. John, do you have something else?
    Mr. Larsen. I have got a----
    Mr. Everett. Go ahead, I am sorry.
    Mr. Larsen. Yes, sure. No, that is fine.
    Mr. Everett. Just as long as it is some things we have not 
already covered.
    Mr. Larsen. Sure, I appreciate that. No, I am sure you 
haven't covered this.
    I was in China in January with a couple other members, and 
we were the first foreign delegation to be allowed to visit the 
Jiuquan Space Launch Center out in the middle of nowhere, in 
the Gobi Desert, which actually, by the way, you get better 
cell service there than in some places in my district. And we 
were able to visit the launch center, visit the vehicle 
assembly building, and then go out to the launch site as well, 
and--able to take some--they allowed photos. There was some 
information that, you know, we passed on.
    And one thing that they communicated to us--and in the 
interest of good relations we said we will pass it on, but that 
is as much as we can do and will do--is their express interest 
in cooperation with the U.S. on space. Obviously, there is a 
lot of concerns in that regard.
    And I guess one message that we took away from that is they 
are cooperating with Russia, with Brazil, with seven countries 
in south Asia and, of course, with the European Space Agency.
    The basic message is they are certainly not waiting for 
cooperation with the United States as they move forward on 
their space program. That is the pretty clear message that they 
wanted to communicate to us. And I don't know where this is all 
going to lead. I know the NASA director is headed over there at 
some point to generally talk. But I just wanted to make you 
aware of that, some information you will pass on to your 
offices, so at least you have that. Maybe it is something you 
already have, but we will pass that information on to you. Use 
it how you will. Yes, thank you.
    Mr. Everett. And, Rick, I thank you for your cooperation 
with the chair.
    Gentlemen, we have a number of questions for the record 
that we are not going to be able to get to today. And I would 
appreciate a prompt response to those questions, and I am 
probably talking 30 days rather than Washington time of 
whenever. So as soon as you get it back to us I would 
appreciate it.
    John, if you have nothing else--Mr. Schwarz? How did we 
time that?
    Thank you for your participation here today. We look 
forward to moving through the markup session, and we will 
probably have more conversations particularly in the closed 
briefing that we will have later. Thank you again.
    The hearing is adjourned.
    [Whereupon, at 2:33 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 16, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0148.007
    
    [GRAPHIC] [TIFF OMITTED] T0148.008
    
    [GRAPHIC] [TIFF OMITTED] T0148.009
    
    [GRAPHIC] [TIFF OMITTED] T0148.010
    
    [GRAPHIC] [TIFF OMITTED] T0148.011
    
    [GRAPHIC] [TIFF OMITTED] T0148.012
    
    [GRAPHIC] [TIFF OMITTED] T0148.013
    
    [GRAPHIC] [TIFF OMITTED] T0148.014
    
    [GRAPHIC] [TIFF OMITTED] T0148.015
    
    [GRAPHIC] [TIFF OMITTED] T0148.016
    
    [GRAPHIC] [TIFF OMITTED] T0148.017
    
    [GRAPHIC] [TIFF OMITTED] T0148.018
    
    [GRAPHIC] [TIFF OMITTED] T0148.019
    
    [GRAPHIC] [TIFF OMITTED] T0148.020
    
    [GRAPHIC] [TIFF OMITTED] T0148.021
    
    [GRAPHIC] [TIFF OMITTED] T0148.022
    
    [GRAPHIC] [TIFF OMITTED] T0148.023
    
    [GRAPHIC] [TIFF OMITTED] T0148.024
    
    [GRAPHIC] [TIFF OMITTED] T0148.025
    
    [GRAPHIC] [TIFF OMITTED] T0148.026
    
    [GRAPHIC] [TIFF OMITTED] T0148.027
    
    [GRAPHIC] [TIFF OMITTED] T0148.028
    
    [GRAPHIC] [TIFF OMITTED] T0148.029
    
    [GRAPHIC] [TIFF OMITTED] T0148.030
    
    [GRAPHIC] [TIFF OMITTED] T0148.031
    
    [GRAPHIC] [TIFF OMITTED] T0148.032
    
    [GRAPHIC] [TIFF OMITTED] T0148.033
    
    [GRAPHIC] [TIFF OMITTED] T0148.034
    
    [GRAPHIC] [TIFF OMITTED] T0148.035
    
    [GRAPHIC] [TIFF OMITTED] T0148.036
    
    [GRAPHIC] [TIFF OMITTED] T0148.037
    
    [GRAPHIC] [TIFF OMITTED] T0148.038
    
    [GRAPHIC] [TIFF OMITTED] T0148.039
    
    [GRAPHIC] [TIFF OMITTED] T0148.040
    
    [GRAPHIC] [TIFF OMITTED] T0148.041
    
    [GRAPHIC] [TIFF OMITTED] T0148.042
    
    [GRAPHIC] [TIFF OMITTED] T0148.043
    
    [GRAPHIC] [TIFF OMITTED] T0148.044
    
    [GRAPHIC] [TIFF OMITTED] T0148.045
    
    [GRAPHIC] [TIFF OMITTED] T0148.046
    
    [GRAPHIC] [TIFF OMITTED] T0148.047
    
    [GRAPHIC] [TIFF OMITTED] T0148.048
    
    [GRAPHIC] [TIFF OMITTED] T0148.049
    
    [GRAPHIC] [TIFF OMITTED] T0148.050
    
    [GRAPHIC] [TIFF OMITTED] T0148.051
    
    [GRAPHIC] [TIFF OMITTED] T0148.052
    
    [GRAPHIC] [TIFF OMITTED] T0148.053
    
    [GRAPHIC] [TIFF OMITTED] T0148.054
    
    [GRAPHIC] [TIFF OMITTED] T0148.055
    
    [GRAPHIC] [TIFF OMITTED] T0148.056
    
    [GRAPHIC] [TIFF OMITTED] T0148.057
    
    [GRAPHIC] [TIFF OMITTED] T0148.058
    
    [GRAPHIC] [TIFF OMITTED] T0148.059
    
    [GRAPHIC] [TIFF OMITTED] T0148.060
    
    [GRAPHIC] [TIFF OMITTED] T0148.061
    
    [GRAPHIC] [TIFF OMITTED] T0148.062
    
    [GRAPHIC] [TIFF OMITTED] T0148.063
    
    [GRAPHIC] [TIFF OMITTED] T0148.064
    
    [GRAPHIC] [TIFF OMITTED] T0148.065
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 16, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. Everett. Please provide the status of your space cadre efforts, 
please include activities and progress from each of the services. Also 
describe your plans for the future.
    Dr. Sega. The Department of Defense is making steady progress 
developing their space professionals. The services have also taken 
significant strides since last year's hearings. The Army has completed 
their Force Management Analysis and has now defined their cadre and 
have an approved function and managerial plan guiding their efforts. 
The Air Force has identified all of their military cadre members and 
implemented a three tier credentialing process. They are now focusing 
on education and personnel requirements and are performing a 
comprehensive billet review. The Navy has completed their Space Human 
Capital Strategy and are using their high performance metrics to ensure 
that positions within the Navy requiring space expertise are filled at 
the appropriate level with people that have the necessary experience. 
The Marine Corps continues to manage their smaller cadre well to meet 
the needs of the Corps. The Navy and Marine Corps will develop focused, 
service-specific education and training requirements in the near and 
mid-term.
    The Space Professional Oversight Board provides oversight of our 
space cadre efforts. In collaboration with the Defense Acquisition 
University, we have recently deployed a DoD Space Acquisition 
Continuous Learning Module (CLM) to provide in-depth coverage of 
National Security Space (NSS) Acquisition Policy 03-01. The Department 
of Defense will deliver a report in fall 2006 (currently in 
coordination) space education and training to Congress, as well as 
complete the departmental instruction on the management of space 
professionals. The AFSPC sponsored NSSI continues to grow and serve the 
government space cadre.
    Mr. Everett. Historically, Satellite Communications (SATCOM) 
requirements exceed the capability of our government systems. To make 
up the difference, each year the U.S. military procures over $400 
million in bandwidth from commercial satellites. In OPERATION IRAQI 
FREEDOM over 80% of our military SATCOM was provided by commercial 
carriers. Does national security require the development of a 
Commercial Satellite Communications Policy much like the National 
Remote Sensing Policy? What are we doing to ensure our warfighters are 
getting the necessary communications capability in a timely and cost 
effective manner?
    Dr. Sega. Current national space policy (PDD/NSC-49) directs DoD 
and other US government agencies to ``purchase commercially available 
space goods and services to the fullest extent feasible.'' There is 
currently no national space communications policy, and it would best 
fall to DISA to determine if one was required. Given DoD's growing use 
of commercial space services, we are taking a structured approach to 
ensure the government's continued access to those services. This 
approach takes advantage of commercial services while modernizing a 
more robust government space backbone to provide services not offered 
by the commercial sector.
    To ensure that warfighters are receiving the capability they need, 
we are leasing commercial services and pursuing additional military 
communications satellites such as Wideband Gapfiller Satellites (WGS) 
(first launch in FY07) and AEHF for protected communication (first 
launch in FY08). Additionally, DISA is working on more efficient 
alternatives for acquiring wideband commercial services and will be 
reporting back to Congress.
    Mr. Everett. A topic of considerable focus over the last year has 
been the relationship between black and white space. Please describe 
your views on this and what should be done in this area in the future. 
What is the status of the effort by the National Security Office's 
ability to coordinate efforts between black and white space?
    Dr. Sega. Integration across the Intelligence Community (IC) and 
DoD space is essential for providing the nation with the space 
capabilities necessary to support national security. The National 
Security Space Office (NSSO) is currently supporting efforts to 
establish National Security Space Architectures that will help 
integrate efforts and coordinate programs and capabilities to support 
the DoD, Director of National Intelligence (DNI) and other civil needs. 
We need to continue our on-going efforts to maximize the partnership 
between the Intelligence and Defense communities particularly in such 
efforts as Architectures; Concepts of Operations; Intelligence, 
Surveillance, and Reconnaissance (ISR); Communications; Launch and 
Ranges, and S&T.
    Mr. Everett. In dealing with the Space Radar program, Congress has 
been very explicit on the importance of demonstrating capability and 
risk reduction on the ground and in the air before rushing to develop a 
space system. Initial indications from FY06 execution and FY07 planning 
suggest that did not happen and that the majority of investment will 
occur in space system development. Please tell us if our expectations 
were sufficiently clear pursuing the importance of ground and air 
demonstrations, and if so why you may still believe otherwise.
    Dr. Sega. The Space Radar program has been working very hard to 
meet congressional expectations to reduce technical risk, develop 
ground exploitation strategies and seek methods toward horizontal 
integration. We are pursuing a philosophy of ``back to basics'' that is 
based on using proven technologies and on pursuing the level of ground 
and air demonstrations necessary to verify technology and reduce 
development and production risk.
    Airborne Electronically Scanned Array (ESA) radars have been flown 
and operated in two test aircraft, and future test flights are planned. 
In addition, extensive data and lessons learned from other ESA programs 
are being analyzed. The Space Radar program has also pursued 
significant investment in ground systems, modeling and simulation, and 
concept of operations (CONOPS) development. This investment has been 
able to confirm expected initial Ground Moving Target Indicator (GMTI) 
algorithm performance. We've also participated in several exercises and 
have additional efforts planned. The combined and interdependent ground 
efforts of the AF, NRO, and NGA requested in the FY07 PB bring the 
program activities back on track and, we believe, in-line with 
congressional expectations.
    Mr. Everett. Over the past decade and a half, the NRO has 
experienced the same if not more significant problems in space systems 
development as the white world. If Nunn-McCurdy applied to the NRO, 
numerous programs would have required recertification. How would you 
characterize the causes and what specific steps are you taking to fix 
the problems?
    Dr. Kerr. Many of the significant problems in National 
Reconnaissance Office (NRO) space system development are due to the 
effects of the Acquisition Reform era. Consequently, the NRO has gone 
back to a traditional government oversight role by making mission 
success, not cost, our top priority. This reflects the way the NRO did 
business in the years before acquisition reform. Some of the efforts 
underway to ensure that the NRO is better postured to deliver on its 
promises are:

Acquisition Policy and Processes Enhancements

    Military Standards and Specifications. The NRO is focusing on 
quality with a return to military specifications and standards on 
contracts. With imposed specifications, the contractors will converge 
on a common, standardized practice towards parts selection and add 
increased rigor to their test programs. The NRO has also expanded the 
sharing of parts and component issues across the NRO and with other 
military and civil space agencies.
    Acquisition Principles. The NRO Acquisition Management Policy 
(Directive 7) has been revised to include post-contract award program 
reviews to increase high-level oversight. A key feature of this update 
is additional Director, NRO (DNRO) reviews of programs after 
Preliminary Design Review and Critical Design Review--key acquisition 
milestones. In previous versions, the last DNRO level review occurred 
much earlier in the acquisition cycle, prior to release of the request 
for proposal. These additional senior level reviews will help 
strengthen the NRO acquisition process and provide additional insight 
into program status during the design phase.
    Independent Reviews. The NRO has also expanded the role of the 
Independent Technical Assessment Team to address technical feasibility, 
capability to produce, test, and identify programmatic and technical 
risks in support of Independent Program Assessment and Independent Cost 
Estimate.
    Senior Management Review of Cost, Schedule, and Performance Data. 
The NRO has Baseline Agreement.and Acquisition Reports (BAAR) 
documenting cost, schedule, and performance parameters that are 
required for NRO programs as designated by the DNRO. Data from the BAAR 
has been incorporated into the NRO Quarterly Program Reviews, which are 
chaired by the Deputy Director, NRO and where contract performance and 
technical risks are reviewed every three months.

Training and Development for our Workforce

    Certification Program in System Engineering (SE). In 2005, the NRO 
established the SE certification program for its personnel. This 
initiative is in direct response to systems engineering needs 
identified by the Young Panel and the Mission Assurance Improvement 
Task Force. The certification is intended to establish standards for 
systems engineering and to improve organizational effectiveness.
    Increased Emphasis in Program Management (PM) Principles. The NRO 
is developing a formal training and certification program for PM, 
intended to reinvigorate the workforce with appropriate program 
management skills. The NRO brings together Program Managers in an 
annual forum to discuss issues, with the most recent November 2005 PM 
Conference focusing on ``Best Acquisition Practices and Lessons 
Learned.''
    Mr. Everett. Despite being originally set up for national-level 
users, today more than 80% of the data that comes from the systems 
built by the NRO provide direct support to the warfighter. That is 
unlikely to change anytime soon. In general, how are you ensuring that 
warfighter requirements are met and receive sufficient advocacy and 
funding during the development of these systems?
    Dr. Kerr. The requirements for NRO systems are not controlled by 
the NRO. The requirements process is led by the Office of the Director 
of National Intelligence with a major role played by the functional 
managers for Imagery Intelligence and Signals Intelligence (SIGINT).\1\ 
The Department of Defense (DoD) is represented throughout this 
requirements process and has the opportunity to influence the outcome 
based on its needs. The NRO also participates in this process and is in 
a particularly good position to provide analyses and trades for various 
proposed architectures and predict their performance against a variety 
of collection scenarios. However, the Director of National 
Intelligence, in consultation with the Secretary of Defense, is the 
final authority for determining the National Reconnaissance Program-
funded programs. The DoD has the option of using the Military 
Intelligence Program to meet additional, DoD-specific, needs or fund 
enhancements to NRO capabilities.
---------------------------------------------------------------------------
    \1\ The National Geospatial-Intelligence Agency is the functional 
manager for imagery intelligence and the National Security Agency is 
the functional manager for SIGINT.
---------------------------------------------------------------------------
    Last, the NRO Deputy Director for Military Support (DDMS) works to 
meet emerging and short-term needs of the warfighter. The DDMS has 44 
NRO representatives deployed in 34 locations worldwide. These NRO 
representatives have two primary responsibilities: (1) provide 
technical expertise on NRO systems and processes in support of the 
user's mission; and (2) gain direct insight into the users' evolving 
needs as a means of more smartly incorporating future changes into NRO 
systems. Through these representatives and other avenues of 
interaction, the NRO Customer Support Center responded to 2,422 
requests for information and assistance in 2005, with 93 percent 
supporting the military customer.
    Mr. Everett. A topic of considerable focus over the last year has 
been the relationship between black and white space. Please describe 
your view on this and what should be done in this area in the future.
    Dr. Kerr. It is important for the nation that the Intelligence 
Community, the DoD, and other elements of the U.S. Space Community 
continue to cooperate to provide affordable, high quality space 
capabilities in an effective and efficient manner when these 
capabilities are needed. Both the NRO and Air Force acquire and operate 
state of the art systems, but each provides different capabilities to 
meet the demands of their different missions. Therefore my focus is not 
on the integration of ``black'' and ``white'' space activities, rather 
my focus is on working closely with the Air Force, the National 
Security Space Community, mission partners, and others to ensure that 
the appropriate agencies leverage each other's capabilities and 
strengths so that the unique missions perform most effectively and 
successfully meet the various demands of the space customers.
    The NRO maintains continuing, cooperative, and collaborative 
partnerships with other organizations--particularly the Air Force--on 
intersecting space issues. These include developing and maintaining a 
professional space cadre, spacecraft mission assurance, engineering and 
program management standards, assured access to space, and providing 
innovative ways to support the warfighter, senior policymakers, and 
other national security elements. Some of the ways in which we 
formalized this cooperation include:
    --Direct participation in the development of DoD, Undersecretary of 
Defense (Policy)--led Space Posture Review that outlines how NRO 
Intelligence, Surveillance, and Reconnaissance (ISR) capabilities are 
being developed and how these capabilities interact with the 
capabilities of other DoD agencies and services.
    --A joint memorandum between the NRO's Deputy Director for System 
Engineering and the Commander, Space and Missiles Systems Center (SMC) 
that initiates collaboration on mission assurance efforts.
    --A memorandum of understanding between the NRO, SMC, the National 
Aeronautics and Space Administration (NASA), and the Defense Supply 
Center Columbus to jointly influence the technical content of parts 
audits and specification reviews at contractor facilities.
    --Joint NRO, SMC, NASA, and the Missile Defense Agency sponsorship 
of the Space Quality Improvement Council. Hosted by the Aerospace 
Corporation, this forum brings together Air Force, government 
civilians, and space industry senior leaders to address mutual concerns 
relative to space systems acquisition.
    --The NRO is working with the Undersecretary of Defense 
(Intelligence) to develop the ISR Integration Road Map. This effort, 
2004 Defense Authorization Act Congressionally Directed Action, is 
aimed at guiding future developments and integration of DoD ISR 
capabilities where NRO assets play a major role.
    --Establishment of U.S. Space Community parts, materials, and 
processes forums to enhance the exchange and sharing of pertinent 
information that can affect generic space system development and assure 
mission success.
    --A Senior Industrial Base Council is a National Security Space 
Forum that addresses policy, regulatory, and technology issues 
affecting the space industrial base. Membership of this council 
includes the Undersecretary of the Air Force, the DNRO, the Commander 
of SMC, and the Director of NSSO.
    --Joint SMC and NRO participation in the DoD chaired System 
Engineering Forum aimed at revitalizing systems engineering and 
promulgating system engineering best practices in large-scale system 
development.
    As for the future, the NRO will pursue two strategic goals: (1) be 
the foundation for global situational awareness, a key need for DoD; 
and (2) provide intelligence within timelines responsive to user needs, 
again another need in alignment with DoD. This will require that the 
NRO plan, develop, and manage an integrated architecture focused on 
creating intelligence value for our users, to include developing new 
capabilities on the ground to enable overhead capability and cross-flow 
of information. We can't do this without the strong partnerships of our 
key stakeholders and established mission partnerships.
    Mr. Everett. Please explain the concept of Joint Warfighting Space 
and its value. To make it truly joint, how have the other services been 
included in the development of a concept of operations and system 
requirements?
    General Klotz. The Joint Warfighting Space (JWS) concept envisions 
a rapid reaction, networked set of space and Near Space capabilities 
dedicated to the Joint Force Commander (JFC) and integrated with the 
National Security Space architecture and organic theater systems. From 
the start, capabilities are expeditionary (people, equipment, training, 
and exercises) and operationally responsive . . . hours to days versus 
months to years to provide space effects. Net-centric and machine-to-
machine interfaces, using existing communication and Intelligence, 
Surveillance and Reconnaissance (ISR) architectures will ensure joint 
operational and tactical forces receive the right information from the 
JWS assets supporting their operation.
    The value of JWS will be measured in the military utility of the 
space effects provided to joint warfighters. Responsiveness and 
persistence are important attributes of the JWS concept. Specifically, 
real-time and/or near real-time effects directly to the tactical 
commanders in the field, dedicated and integrated capabilities directly 
under JFC control, and lower cost space/Near Space assets are keys to 
the success of this concept. Certain space capabilities, such as 
communications, are often insufficient to satisfy the multiple demands 
placed on them, especially at lower echelons. Others, such as ISR, 
cannot always provide the tailored, on-demand persistence necessary to 
support battlespace awareness. In most cases, the tasking processes are 
not timely enough to provide the type of response needed by military 
forces under fire. This JWS concept advocates both material and non-
material changes to alleviate these deficiencies. For example, the JWS 
capabilities will provide theater commanders the ability to control and 
dynamically re-task payloads on JWS-dedicated overhead assets.
    The JWS program is an Air Force program, with joint participation 
and support. From the start of the program, Air Force Space Command 
partnered with the other Services in the development of the JWS 
Operating Concept, which is the cornerstone for key sections of the 
Operationally Responsive Space (ORS) and JWS Joint Integrated Concept 
Development Documents that are nearing Joint Requirements Oversight 
Council (JROC) approval. Army personnel are directly involved with the 
joint employment of Combat SkySat (AFSPC's first Near Space platform), 
in the Joint Expeditionary Forces Experiment (JEFX) 2006. Additionally, 
Air Force Space Battlelab initiated the standup of the Joint Near Space 
Council with Army, Navy, Coast Guard, USSOCOM and USNORTHCOM 
participation. This Council provides a forum to share lessons regarding 
ongoing activities, coordinate future exercises and testing, and serve 
as program advocates. Draft deployment plans for Combat SkySat include 
joint participation to field and execute this platform in the USCENTCOM 
Area of Responsibility. Additionally, AFSPC polled the Combatant 
Commands (USSOUTHCOM, USCENTCOM, USSOCOM, USPACOM and USSTRATCOM) 
regarding capability gaps and determined dedicated communications and 
persistent ISR are the highest Combatant Commander (COCOM) priorities. 
All these efforts have led to a truly joint program.
    Mr. Everett. The Space and Missile Systems Center is looking at 
standing up an organization with new acquisitions processes that will 
focus on technical and operational demonstrations while emphasizing 
innovation and flexibility. Please further describe this organization, 
the expected value and benefits, and tell us where you intend to put 
this organization.
    General Klotz. Air Force Space Command, Space and Missile Systems 
Center and the Program Executive Officer for Space have established a 
``back-to-basics'' campaign to re-establish rigor and discipline in our 
space acquisition programs. A key ingredient to this campaign is 
improving space systems developmental planning and focused technology 
demonstration.
    In the past, an Air Force Special Projects organization provided 
fast-paced, technically innovative space capabilities through a unique 
blend of people, authorities, management practices and culture. The new 
Air Force Special Projects Office will be chartered to manage the 
diverse set of ongoing space demonstrations. Candidate programs include 
the following: Affordable Responsive Spacelift (ARES), TACSAT, FALCON, 
Hypersonic Technology Vehicle (HTV-CAV), Conventional Ballistic 
Missiles (CBM), and Operationally Responsive Space (ORS).
    This organization will leverage new and existing organizational 
elements, drawing on best practices and performers across the Air 
Force, as well as from other Services and agencies. The location of 
this office is under consideration. Essential elements of this 
organization will include streamlined management and acquisition 
authorities, which will enable the rapid execution of these projects to 
improve our space programs ``time to market.'' Our objectives will be 
to mature promising technologies prior to integration into ongoing or 
new programs, provide real life performance data to guide the 
requirements definition, and enable the development of a more informed 
risk management plan.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES

    Mr. Reyes. Has the Air Force considered using commercial satellites 
to obtain some of the capabilities being sought through the development 
of the Transformational Satellite (TSAT) program? Specifically, could 
you describe why the Spaceway satellites currently on orbit could not 
be used to meet parts of the TSAT requirements? Has the Air Force 
considered procuring a modified version of the Spaceway satellite as a 
developmental step toward achieving TSAT capabilities?
    Dr. Sega. The Air Force is pursuing a range of satellite 
capabilities to provide both wideband and protected communications. 
Wideband systems, both military and civilian, provide very high data 
rates, but have limited anti-jam and radiation hardening. Protected 
systems (such as MILSTAR, Advanced EHF (AEHF), and TSAT) provide 
required assured communication (e.g. command and control of nuclear 
forces), and are built with robust radiation hardening and anti-jam 
capabilities.
    The Air Force continues to invest in commercial wideband 
capabilities (e.g. over 80% of the comm for OIF), and in modified 
commercial systems (e.g. Wideband Gapfiller System (WGS)). Commercial 
systems, though, are not able to fulfill Protected Communication 
requirements, due primarily to their lack of radiation hardening and 
anti-jam capabilities.
    Modifying commercial systems, such as Spaceway, to meet all of the 
Protected Communication requirements tends not to be cost effective, 
but the government continues to assess new satellite technologies and 
capabilities. To that end, TSAT will leverage the technology, 
integration, and experience gained in the development of Spaceway and 
other commercial systems, and ensure they are considered as the TSAT 
antennas and space vehicle are developed.
    Mr. Reyes. The Army's Future Combat Systems (FCS) is slated to be a 
major initial user of TSAT. Has the Air Force considered using the 
commercial alternatives during FCS initial testing and fielding? How 
has the Air Force been working with the Army to ensure that their 
timelines match up?
    Dr. Sega. The requirements that define TSAT and its first block 
were developed through a DoD-wide Quadrennial Defense Review (QDR) 
process, in which the Combatant Commands and the Army had key roles. 
Additionally, the Air Force continues to work closely with the Army 
through multiple forums to include the TSAT Users Forum, quarterly TSAT 
Program Reviews, and the TSAT Authors Group, which is responsible for 
documenting TSAT requirements in the TSAT Capability Development 
Document. Any use of commercial alternatives during initial testing and 
fielding of FCS would be determined by the Army, and the Air Force 
would collaborate on any potential civilian options.
    Mr. Reyes. The FY 2007 funding request for TSAT is more than double 
the FY 2006 spending level. Please explain why the Air Force believes 
that such an increase in funding can be spent effectively. What are the 
major testing and hardware deliverables associated with this increase?
    Dr. Sega. The FY 2007 funding request was developed to meet 
warfighter needs by executing the program plan to carry two contractors 
through technology and concept development. The funding profile is 
executable.
    In addition to the space segment risk reduction and system 
definition, the FY 2007 request includes technology maturation, TSAT 
requirements definition activities; TSAT Mission Operations System 
(TMOS) development and integration with the Global Information Grid 
(GIG); and system engineering and integration activities, all 
culminating in the program level System Design Review in 3QFY07.
    Key technology integration/maturation will be demonstrated during 
Test Event II, scheduled for Nov. 2006 through Feb. 2007. During this 
event, both space segment contractors will conduct brassboard lasercom 
and next generation processor/router demonstrations. These independent 
government tests serve to reduce technical risk by maturing the 
critical technologies to Technology Readiness Level 6, the benchmark 
for entering program design. Other FY07 efforts include life testing 
and modeling of key components in the lasercom system (e.g. pump 
diodes) and developing the network management and mission operations 
segment.
    Mr. Reyes. Please provide a detailed breakout of resources across 
the entire Department of Defense devoted to Operationally Responsive 
Space contained within the present Five Year Defense Plan.
    Dr. Sega. In the current FYDP, Operationally Responsive Space (ORS) 
includes TacSats, associated launch vehicles, and responsive launch 
development, and is broken out below:

TacSat 1 (Ready for Launch)

    Office of Force Transformation (OFT) is sponsor, NRL is technical 
lead, Air Force is lead for launch.
    Funding Sources Summary: $20.7M total, FY03-06 (Launch, OFT & NRL 
Funding)

TacSat-2: $65.0M total, FY04-07 (In Final Integration/Environmental 
Testing)

    FY04 and Previous $18.9M
    FY05 $14.3M
    FY06 $21.9M
    FY07 $9.9M

Funding Sources Summary:

    - AFSPC: $19.8M (Launch)
    - AFRL: $32.5M (SV/Payload)
    - Space Warfare Center (SWC): $1.7M (Military Utility)
    - Space Test Program (STP): $1.0M (Launch-related)
    - DUSD (AS&C): $6.7M (ACTD Funds)
    - OFT (via NRL): $0.3M (Payload)
    - Navy/ONR: $3.0M (Navy Payload)

TacSat 3: $54.4M total, FY05-08 (In Development)

    FY05 $12.8M
    FY06 $21.2M
    FY07 $19.1M
    FY08 $1.3M

Funding Sources Summary:

    - AFSPC: $19.8M (Launch, Range, Ops)
        NOTE: Currently there is a $19.1M shortfall in addressing this 
requirement; the Air Force plans to reprogram funds to address this 
shortfall.
    - AFRL: $15.4M (Payload/Processor/Integration/Ground Station/
Payload Ops)
    - Army SMDC: $5.0M (Payload)
    - OFT, AFRL, others: $14.2M (Modular/Spacecraft Bus)

TacSat 4: TBD total, FY06-FY09 (Early Planning/Requirements Definition)

    FY06 $16.2M
    FY07 $7.2M
    FY08 and beyond TBD

Funding Sources Summary:
    - AFSPC: $27M TacSat-4 is being worked as part of the FY08 POM 
process
      -  Launch cost increase due to different launch vehicles used 
(Minitaur 4 vs Minitaur 1 used for TacSat 1, 2)
    - Naval Research Labs (NRL): $16.0M (Payloads, Integration, Ground 
Terminals)
    - OFT: TBD $M (Modular Spacecraft/Bus)

Small Launch Vehicle

    -  Joint AF-Defense Advanced Research Projects Agency (DARPA) 
Falcon Program with NASA participation
    - $142.3M Total, FY03-09
      - Air Force - $127.8M
      - DARPA - $4.5M
      - NASA - $10.0M

Affordable Responsive Space (ARES)

    AF - $180.1M total, FY07-11
    - FY07 New Start

    Mr. Reyes. Just after arriving in your new job, you had the 
opportunity to evaluate the acquisition problems with SBIRS-High and to 
help shape a new procurement strategy for that system in response to a 
Nunn-McCurdy breech.
    1. Could you discuss why you think this program, which represents a 
relatively moderate technology upgrade to the DSP program that it will 
replace, became so troubled?
    2. Based on your experience with this program and the other space 
acquisition problems that you have been managing, what in your view is 
the single most important structural change that we should make to the 
acquisition process?
    Dr. Sega. 1. SBIRS High is a complex system providing extensive 
support to four mission areas, versus the two missions of DSP. The 
aggregated requirements challenge was significant given the maturity of 
the technology proposed to meet these requirements.
    In November 2001, the Air Force chartered a joint government/
contractor Independent Review Team (IRT). They found:

      <bullet>  Technology was too immature to enter detailed System 
Design and Development (i.e. EMD).
      <bullet>  System requirements decomposition and flow down were 
not well understood as the program continued to evolve.
      <bullet>  Significant problem in execution management.

    In 2002, the program was certified, rebaselined and fixes were put 
in place to correct these problems.
    As HEO payload testing progressed, we discovered Electromagnetic 
Interference (EMI) between the host and the payload, and extensive 
latent quality defects in existing hardware already built. On March 10, 
2005, the Acting SECAF notified Congress of another Nunn-McCurdy cost 
breach. He directed an Independent Program Assessment (IPA). The IPA 
found the SBIRS program continued to experience problems with 
integration, software and systems engineering, remaining from before 
the 2002 restructure. The IPA found insufficient schedule and budget 
margin for robust GEO first article integration and test.
    The SBIRS program ``overreached'' in trying to meet the various 
user requirements all at once, rather than taking a block approach and 
building up to achieve the full SBIRS capability.
    2. The most important structural change we can make to the 
acquisition process is to implement a Back to Basics philosophy that 
reflects a ``walk before you run'' program construct in three key 
areas. The cornerstone of the Back to Basics philosophy is to use an 
evolutionary acquisition approach that reapportions risk--allows higher 
risks in the earlier stages (science and technology and technology 
development) and reduces risks in system production by using more 
mature technologies. We must also pursue a ``Back to Basics'' 
philosophy in terms of recruiting and training our space acquisition 
workforce. We must also ensure that our acquisition workforce is 
properly educated and trained and that our space professionals have the 
tools and training necessary to operate these systems.
    Mr. Reyes. Experts within the cost estimating community have told 
GAO that cost estimators are more likely to prepare accurate, risk-
based cost estimates if the estimators are independent of the 
acquisition chain of command. The Navy has adopted this model and has 
found that it increases opportunities for learning and career growth as 
well as more accurate cost estimates.
    1. Has the Air Force considered adopting the Navy's model of 
centralizing its cost estimating resources?
    2. Should the Air Force consider increasing the Air Force Cost 
Analysis Agency's involvement in providing independent assessments of 
space programs?
    Dr. Sega. In building a strategy to improve Air Force (AF) cost 
estimating, we have considered numerous options; from centralizing the 
cost functions at each of the Major Commands/Product Centers to 
completely centralizing AF cost estimating. We are currently developing 
a comprehensive plan to improve AF cost analysis that capitalizes on a 
blend of centralized and decentralized cost resources. This plan will 
hold the Program Executive Office responsible and accountable for 
establishing and sustaining a reliable cost estimating capability, and 
establishes the necessary headquarters oversight and guidance to ensure 
that credible, independent AF cost estimates are developed.
    The plan will also include an expanded independent cost assessment 
requirement for effective program executive office and corporate-level 
oversight of major programs. The Air Force Cost Analysis Agency (AFCAA) 
will perform independent assessments of program costs, both earlier and 
more often, for all major Air Force acquisition programs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SPRATT

    Mr. Spratt. The cost of putting an object in space has been 
estimated by some to be as high as $22,000 per kilogram. You mentioned 
using smaller satellites in your oral testimony as one way to lower 
launch costs. Are there any other ongoing projects to lower the cost of 
launch?
    Dr. Sega. The Air Force's Operationally Responsive Space (ORS) 
efforts are addressing both quick reaction and low-cost launch through 
both the Air Force/DARPA Falcon Program's Small Launch Vehicle (SLV) 
and the Affordable Responsive Spacelift (ARES) efforts.
    Mr. Spratt. What is the status of the Transformational Satellite 
Program? What activities planned for this year justify more than 
doubling the budget for this program from $436.8 million in FY06 to 
$867.1 million proposed for FY07?
    Dr. Sega. The FY 2007 funding request was developed to meet 
warfighter needs by executing the program plan to carry two contractors 
through technology and concept development. The funding profile is 
executable.
    In addition to the space segment risk reduction and system 
definition, the FY 2007 request includes technology maturation, TSAT 
requirements definition activities; TSAT Mission Operations System 
(TMOS) development and integration with the Global Information Grid 
(GIG); and system engineering and integration activities, all 
culminating in the program level System Design Review in 3QFY07.
    Key technology integration/maturation will be demonstrated during 
Test Event II, scheduled for Nov. 2006 through Feb. 2007. During this 
event, both space segment contractors will conduct brassboard lasercom 
and next generation processor/router demonstrations. These independent 
government tests serve to reduce technical risk by maturing the 
critical technologies to Technology Readiness Level 6, the benchmark 
for entering program design. Other FY07 efforts include life testing 
and modeling of key components in the lasercom system (e.g. pump 
diodes) and developing the network management and mission operations 
segment.
    Mr. Spratt. Just after arriving in your new job, you had the 
opportunity to evaluate the acquisition problems with SBIRS-High and to 
help shape a new procurement strategy for that system in response to a 
Nunn-McCurdy breech.
    1. Could you discuss why you think this program, which represents a 
relatively moderate technology upgrade to the DSP program that it will 
replace, became so troubled?
    2. Based on your experience with this program and the other space 
acquisition problems that you have been managing, what in your view is 
the single most important structural change that we should make to the 
acquisition process?
    Dr. Sega. 1. SBIRS High is a complex system providing extensive 
support to four mission areas, versus the two missions of DSP. The 
aggregated requirements challenge was significant given the maturity of 
the technology proposed to meet these requirements.
    In November 2001, the Air Force chartered a joint government/
contractor Independent Review Team (IRT). They found:

      <bullet>  Technology was too immature to enter detailed System 
Design and Development (i.e. EMD).
      <bullet>  System requirements decomposition and flow down were 
not well understood as the program continued to evolve.
      <bullet>  Significant problem in execution management.

    In 2002, the program was certified, rebaselined and fixes were put 
in place to correct these problems.
    As HEO payload testing progressed, we discovered Electromagnetic 
Interference (EMI) between the host and the payload, and extensive 
latent quality defects in existing hardware already built. On March 10, 
2005, the Acting SECAF notified Congress of another Nunn-McCurdy cost 
breach. He directed an Independent Program Assessment (IPA). The IPA 
found the SBIRS program continued to experience problems with 
integration, software and systems engineering, remaining from before 
the 2002 restructure. The IPA found insufficient schedule and budget 
margin for robust GEO first article integration and test.
    The SBIRS program ``overreached'' in trying to meet the various 
user requirements all at once, rather than taking a block approach and 
building up to achieve the full SBIRS capability.
    2. The most important structural change we can make to the 
acquisition process is to implement a Back to Basics philosophy that 
reflects a ``walk before you run'' program construct in three key 
areas. The cornerstone of the Back to Basics philosophy is to use an 
evolutionary acquisition approach that reapportions risk--allows higher 
risks in the earlier stages (science and technology and technology 
development) and reduces risks in system production by using more 
mature technologies. We must also pursue a ``Back to Basics'' 
philosophy in terms of recruiting and training our space acquisition 
workforce. We must also ensure that our acquisition workforce is 
properly educated and trained and that our space professionals have the 
tools and training necessary to operate these systems.
    Mr. Spratt. Experts within the cost estimating community have told 
GAO that cost estimators are more likely to prepare accurate, risk-
based cost estimates if the estimators are independent of the 
acquisition chain of command. The Navy has adopted this model and has 
found that it increases opportunities for learning and career growth as 
well as more accurate cost estimates.
    1. Has the Air Force considered adopting the Navy's model of 
centralizing its cost estimating resources?
    2. Should the Air Force consider increasing the Air Force Cost 
Analysis Agency's involvement in providing independent assessments of 
space programs?
    Dr. Sega. In building a strategy to improve Air Force (AF) cost 
estimating, we have considered numerous options; from centralizing the 
cost functions at each of the Major Commands/Product Centers to 
completely centralizing AF cost estimating. We are currently developing 
a comprehensive plan to improve AF cost analysis that capitalizes on a 
blend of centralized and decentralized cost resources. This plan will 
hold the Program Executive Office responsible and accountable for 
establishing and sustaining a reliable cost estimating capability, and 
establishes the necessary headquarters oversight and guidance to ensure 
that credible, independent AF cost estimates are developed.
    The plan will also include an expanded independent cost assessment 
requirement for effective program executive office and corporate-level 
oversight of major programs. The Air Force Cost Analysis Agency (AFCAA) 
will perform independent assessments of program costs, both earlier and 
more often, for all major Air Force acquisition programs.
    Mr. Spratt. Can you tell us what you can on the open space record 
about space weapons, space counter-space?
    Dr. Sega. In May 2001, when Secretary of Defense Rumsfeld announced 
the implementation of the Space Commission, he emphasized two key 
points concerning to our National Space Policy: ``The United States is 
committed to the exploration and use of outer space by all nations for 
peaceful purposes for the benefit of all humanity. Peaceful purposes 
allow defense and intelligence-related activities in pursuit of 
national security and other goals.'' The SECDEF went on to say 
``Consistent with treaty obligations, the United States will develop, 
operate and maintain space control capabilities to ensure freedom of 
action in space, and if directed, deny such freedom of action to 
adversaries.'' Our national policy in this area has remained consistent 
over the last decade.
    Counterspace Operations consist of space situational awareness 
(SSA), defensive counterspace (DCS), and offensive counterspace (OCS). 
SSA forms the foundation for all counterspace actions and includes 
traditional space surveillance, detailed reconnaissance of specific 
space assets, collection and processing of space intelligence data, and 
analysis of the space environment. DCS preserves US/allied ability to 
exploit space to its advantage by protecting friendly space related 
capabilities from enemy attack or interference. OCS operations preclude 
an adversary from exploiting space to his advantage.
    Mr. Spratt. The department has undertaken and proposed a number of 
acquisition reforms intended to address some of the problems 
highlighted by the GAO. Can you outline for us what reforms have taken 
place already and what results you have seen? Also, what new proposals 
do you anticipate putting in place in the future and to what?
    General Klotz. Air Force Space Command (AFSPC) is working with our 
operational communities to improve the Joint Capabilities Integration 
and Development System (JCIDS) process to make it more timely and 
responsive, and to advance requirements and development in an 
incremental approach.
    We also implemented an improved acquisition model--a block 
acquisition process for developing and fielding space systems that we 
describe as a ``back to basics'' acquisition strategy.
    Key to this strategy is a redistribution of risk from the 
production line to the earliest stages of a space program's life cycle. 
We are now proceeding with more mature technologies, more stable 
requirements, and placing more discipline in systems design. The 
expectation is cycle times will be reduced and we'll be able, with 
higher confidence, to maintain cost and schedule, and produce 
capabilities by synchronizing science and technology, technology 
development, systems development and demonstration, and systems 
production. Space Radar, Global Positioning System (GPS), Space-Based 
Space Surveillance (SBSS), and Transformational Satellite (TSAT) are 
path-finding this improved process.
    Essential elements to the ``back to basics'' acquisition approach 
are as follows: (1) Make mission success the #1 priority, (2) re-
baseline all AFSPC acquisition policies and processes (National 
Security Space Acquisition Policy 03-01 and the urgent and compelling 
needs process), (3) return to rigorous engineering and test processes, 
(4) improve cost estimating and funding stability, (5) control 
requirements creep and independent reviews, and (6) improve the space 
acquisition workforce professional development to include keeping 
Program Managers in place for longer tours and education through our 
Space and Missile Systems Center (SMC) Acquisition School.
    Mr. Spratt. Does the United States Air Force currently have plans, 
programs and budget initiatives to engage in ``offensive counter-space 
operations,'' as directed in Air Force Doctrine Document 2-2.1, 
entitled ``Counterspace Operations,'' dated August 2, 2004? If so, have 
these policies been discussed with U.S. allies that might be affected?
    General Klotz. Air Force counterspace operations, underpinned by 
space situation awareness, support both the space control mission of 
USSTRATCOM and theater military operations. Offensive Counter Space 
(OCS) operations are intended to preclude an adversary from exploiting 
space to their advantage and may target an adversary's space capability 
(space systems, terrestrial systems, links, or third party space 
capability), using a variety of permanent and/or reversible means (the 
preferred option). As adversaries become more dependent on space 
capabilities, counterspace operations have the ability to produce 
effects that directly impact their ability and will to wage war at the 
strategic, operational and tactical levels.
    Our current counterspace efforts, aimed at preventing an adversary 
from using space-based capabilities against US and Allied forces, are 
focused on counter communications capabilities. The first fielded 
Counter Communication System (CCS) reached Initial Operational 
Capability in September 2004. The system has the ability to reversibly 
deny or disrupt an adversary's use of satellite-based communications 
deemed to be hostile, without causing permanent damage. To meet the 
continued growth in the use of satellite communications, we are 
planning to field more CCSs with added capabilities throughout the 
current Future Years Defense Program (FYDP).
    We have also engaged our Allied partners in counterspace 
discussions through such forums as the Schriever Wargaming series and 
the US--Australia Bilateral Space Forum. A recent Schriever IV Senior 
Policy Seminar held in Washington DC included representatives from the 
United Kingdom, Canada, and Australia. Working groups have been formed 
to discuss future policy implications of counterspace operations, 
including Allied participation and support. These forums facilitate 
ongoing dialogue with our Allies and assist them in coordinating future 
space planning efforts.
    Mr. Spratt. How does the USAF plan to use TacSats to improve major 
space systems technology, acquisition, and employment? Specifically 
provide intended launch vehicles, launch schedules, and experiments to 
be conducted for the next 5 years, and 10 years. Describe the 
impediments you see to an accelerated launch schedule, and what 
specific efforts have been undertaken to accelerate the launch schedule 
of TacSats, the results of those efforts and a timeframe for 
completion.
    General Klotz. TacSats are designed to be complementary to major 
space systems, not to replace them. TacSats focus on tactical 
applications to support the Joint Force Commander (JFC) during conflict 
for enhanced capabilities in areas such as communication and 
information gathering.
    There are several ways TacSats can improve major space systems 
technology, acquisition, and employment. Specifically:

      <bullet>  Follow-on operational versions of TacSats will provide 
responsive capacity and coverage for surge, augmentation or to restore 
space capabilities.
      <bullet>  TacSats provide a platform for science and technology 
development, risk reduction, and technology maturation for major space 
systems.
      <bullet>  TacSats provide opportunities for major space systems 
to capitalize on streamlined acquisition practices such as the use of 
standard interfaces and common bus architectures. Major space systems 
may also benefit from the lessons learned through the military utility 
assessments of ORS satellites supporting JFC real-world needs.

    The TacSat experiment schedule for the next three years follows:



                                Launch Vehicle
           Payload                                     Launch Date

TacSat-1                       Space X Falcon                          CY2006
                                1 SLV
Experiment:                    Low resolution
                                imaging and RF
                                locator
Sponsor:                       Naval Research
                                Labs (NRL)

TacSat-2                       TBD                             May 2007
Experiment:                    High resolution
                                imaging and RF
                                locator
Sponsor:                       Air Force
                                Research Labs
                                (AFRL)

TacSat-3                       TBD                            July 2007
Experiment:                    Hyperspectral
                                imagery
Sponsor:                       Air Force
                                Research Labs
                                (AFRL)

TacSat-4                       Minotaur IV                             CY2008
Experiment:                    Communications
                                on the move
                                and
                               Blue-Force
                                Tracking
Sponsor:                       Naval Research
                                Labs (NRL)



    The TacSat 2 and 3 launch vehicle request for proposals was issued 
6 Apr. 2006. Proposals are due in May and we expect to be on contract 
by June 2006. The competitors are Space X with the Falcon vehicle and 
Orbital with the Raptor or Minotaur.
    Future TacSats are planned to occur on roughly an annual basis. 
Experiment selection will be based on Combatant Commanders' needs.
    Funding for small satellite standard or common bus development, 
launch vehicle procurement and the lack of low-cost small launch 
vehicles are impediments that hinder the acceleration of the TacSat 
experiments. Steps have not been taken to accelerate the launch 
schedule beyond the available funding.
    Mr. Spratt. How do USAF programs outlined in question 3 differ from 
or agree with other DOD efforts, and why?
    General Klotz. The TacSat experiments focus on requirements 
identified and vetted by the Combatant Commanders and each of the 
Services. In general, the cost and life spans of small satellite 
constellations should be significantly lower than traditional large 
scale space systems.
    The Air Force has received considerable Congressional attention 
with respect to the TacSat program. We continue working to establish a 
common position that synchronizes an Operationally Responsive Space 
(ORS) vision and mission across OSD, the military Services, agencies 
and Combatant Commanders. We conduct weekly teleconferences to address 
TacSat issues with the Air Force and Navy Lab communities, as well as 
the Intelligence Community, Army, Navy, Marine Corps, OSD Office of 
Force Transformation (OFT), and National Security Space Office (NSSO) 
representatives in order to achieve unity of effort for the TacSat 
program and ORS.
    Mr. Spratt. What efforts has the USAF undertaken to utilize the 
relatively lower cost of operating in the near space environment to 
accomplish any of its space system goals? Please explain.
    General Klotz. Air Force Space Command (AFSPC) embarked on an 
ambitious Near Space roadmap to support AFSPC's #1 priority to ``Secure 
the Space Domain and Provide Space Combat Effects to Joint 
Warfighters.'' The Near Space roadmap uses a 3-tiered approach:

    Tier 1--Near Space Analysis and Program Development. This activity 
includes the following: (a) Establishment of a Near Space program 
office with the Space and Missile Systems Center to perform research, 
development, testing and demonstration, and most importantly, establish 
agile contracting to meet warfighter quick reaction needs. (b) Conduct 
Studies and Analysis: The Air Force, other Services, and other agencies 
have performed studies on Near Space, and we continue to support these 
current and future studies in this area. (c) Begin the process of 
adding Near Space to our Integrated Programming and Planning process to 
effect the Science and Technology roadmaps as well as our future 
planning needs for Program Objective Memorandum analysis and funding.
    Tier 2--Quickly transition Near Space demonstrations to operational 
systems. Primary interfaces are with the Air Force Space Battlelab 
(AFSB) and Air Force Tactical Exploitation of National Capabilities 
(TENCAP). The Battlelab is pursuing multiple Near Space demonstrations, 
most notably Combat SkySat. Combat SkySat is a balloon-borne, free-
floating platform carrying a maximum payload weight of 6 lbs. in Near 
Space. Combat SkySat is an initiative with Joint Expeditionary Forces 
Experiment (JEFX) 2006 to provide inexpensive Beyond Line of Sight 
communication enhancement capability for our Air Force Special 
Operations Command forces. Additionally, we are in our final 
demonstration phase for TENCAP developed Talon TOPPER project. Talon 
TOPPER is a balloon-borne, free-floating platform carrying a payload 
return vehicle which detaches from the balloon at the end of a mission 
and returns up to a 30 lb. payload to a predetermined location. 
Finally, we are working with the United States Special Operations 
Command (USSOCOM), Army, and Intelligence Community to pursue a high 
altitude, long-loiter capability. This low-cost, but highly agile set 
of capabilities provides the Air Force with a complementary suite of 
platforms that could deploy to support the tactical commander: All are 
designed with an expeditionary focus. The expendable Combat SkySat 
systems, the Talon TOPPER payload return systems and the final high 
altitude, long-loiter systems provide a very persistent, dedicated and 
responsive set of Near Space platforms designed to meet existing 
Combatant Command and Air Force Space priorities.
    Tier 3--Longer range planning and wargaming. Using wargames like 
Schriever III, IV and beyond, Ulchi Focus Lens, and supporting 
predeployment exercises with the joint community at our National 
Training Centers are examples of efforts ongoing in this Tier. AFSPC is 
committed to pursuing low-cost Near Space capabilities and taking 
responsive actions as the ``lead Service'' for this new environment. 
Secretary of the Air Force, The Honorable Michael Wynne, reinforces 
this approach by stating, ``From air to lack of air, ultimately to zero 
space, this (Near Space) is an area that we think, that as an Air 
Force, we need to exploit.''
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. The Mission Description for the Advanced Optics and 
Laser Space Technology Project (PE 0603605F, Project No. 11SP) states: 
``This project provides for the demonstration and detailed assessment 
of space unique technologies needed for advanced optical systems and 
high-energy laser weapons.''
    One major thrust of this project is to: ``Perform atmospheric 
compensation/beam control experiments for application including anti-
satellite weapons, relay mirror systems, satellite tests and 
diagnostics, and high-resolution satellite imaging.'' In FY 2007, $5.71 
million is requested to: ``Demonstrate fully compensated laser 
propagation to low earth orbit satellites; measure beam profile and 
intensity on target. Begin development of precision aimpoint 
stabilization through turbulence.''
    Another major thrust of this project is to: ``Develop and 
demonstrate advanced optical beam control technologies for laser 
propagation through severe and/or extended atmospheric turbulence.'' In 
FY 2007, $14.9 million is requested to: ``Integrate advanced ground 
test system for characterization of laser propagation through 
atmospheric turbulence. Demonstrate and characterize operation of 
advanced adaptive optical and tracking technologies for laser 
propagation to space targets in stressing atmospheric conditions.''
    Please explain the details of these demonstrations. Specifically, 
will either of these demonstrations result in any physical or 
operational damage to an orbiting satellite?
    Dr. Sega. The atmospheric compensation/beam control experiments, as 
part of Air Force Science and Technology programs, described in the 
Advanced Optics and Space Technology project in Program Element 
0603605F, Advanced Weapons Technology, will not result in any physical 
or operational damage to an orbiting satellite. These experiments 
propose to use a low power lasers to develop advanced beam control 
technology for high-resolution imaging applications. Low power lasers 
are used to compensate for atmospheric turbulence and illuminate space 
objects for tracking/imaging, with primary application being Space 
Situational Awareness.
    Ms. Sanchez. The Mission Description for the Advanced Optics and 
Laser Space Technology Project (PE 0603605F, Project No. 11SP) states: 
``This project provides for the demonstration and detailed assessment 
of space unique technologies needed for advanced optical systems and 
high-energy laser weapons.''
    One major thrust of this project is to: ``Perform atmospheric 
compensation/beam control experiments for application including anti-
satellite weapons, relay mirror systems, satellite tests and 
diagnostics, and high-resolution satellite imaging.'' In FY 2007, $5.71 
million is requested to: ``Demonstrate fully compensated laser 
propagation to low earth orbit satellites; measure beam profile and 
intensity on target. Begin development of precision aimpoint 
stabilization through turbulence.''
    Another major thrust of this project is to: ``Develop and 
demonstrate advanced optical beam control technologies for laser 
propagation through severe and/or extended atmospheric turbulence.'' In 
FY 2007, $14.9 million is requested to: ``Integrate advanced ground 
test system for characterization of laser propagation through 
atmospheric turbulence. Demonstrate and characterize operation of 
advanced adaptive optical and tracking technologies for laser 
propagation to space targets in stressing atmospheric conditions.''
    The plain reading of the budget justification for this project 
raises the issue that these demonstrations could be considered a test 
of an anti-satellite weapon. Please explain why this is not true. Or, 
conversely, please identify the policy guidance that authorizes such a 
test.
    Dr. Sega. The atmospheric compensation/beam control experiments and 
their potential anti-satellite weapons application described in the 
Advanced Optics and Space Technology project in Program Element 
0603605F, Advanced Weapons Technology, are not intended to be, nor 
should they be considered as, a test of an anti-satellite weapon. These 
experiments propose to use low power lasers to develop advanced beam 
control technology for high-resolution satellite imaging and to provide 
technology for future applications. Low power lasers are used to 
compensate for atmospheric turbulence and to illuminate space objects 
for tracking and imaging. This technology has many potential 
applications, including relay mirror systems, satellite tests and 
diagnostics, and high-resolution imaging.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN

    Mr. Larsen. Can you describe the status of the program on TSAT? And 
can you give us, say, over the next 12 months what are some key events 
that will exist in the TSAT program that will give us here in Congress 
some ability to measure the progress and gain some confidence in that 
program?
    Dr. Sega. The FY 2007 funding request was developed to meet 
warfighter needs by executing the program plan to carry two contractors 
through technology and concept development. The funding profile is 
executable.
    In addition to the space segment risk reduction and system 
definition, the FY 2007 request includes technology maturation, TSAT 
requirements definition activities; TSAT Mission Operations System 
(TMOS) development and integration with the Global Information Grid 
(GIG); and system engineering and integration activities, all 
culminating in the program level System Design Review in 3QFY07.
    Key technology integration/maturation will be demonstrated during 
Test Event II, scheduled for Nov. 2006 through Feb. 2007. During this 
event, both space segment contractors will conduct brassboard lasercom 
and next generation processor/router demonstrations. These independent 
government tests serve to reduce technical risk by maturing the 
critical technologies to Technology Readiness Level 6, the benchmark 
for entering program design. Other FY07 efforts include life testing 
and modeling of key components in the lasercom system (e.g. pump 
diodes) and developing the network management and mission operations 
segment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CALVERT

    Mr. Calvert. The FY06 DoD Appropriations Conference Report (Conf. 
Rpt. 109-359) includes a section entitled, ``Evolved Expendable Launch 
Vehicle (EELV)'' and states in part, ``The conferees . . . direct the 
elimination of multi-year `allocations,' `pre-awards,' and `block buys' 
from Buy-3 and future EELV launch services contracts.'' The Air Force 
has represented that EELV launch services contracts are to be awarded 
annually. For instance, the first award in Buy-3 will made in FY06 for 
launch in FY08 and covers three (3) of the twenty-two (22) total EELV 
Buy-3 missions. The remaining nineteen (19) launches, however have been 
expressly allocated (though not awarded) to the Boeing Company and 
Lockheed Martin in the Buy-3 RFP. Critically, the remaining 19 EELV 
Buy-3 launches span from FY07 through FY11. In a letter to my office 
dated March 6, 2006, you stated, ``[t]he remaining 19 Buy-3 EELV launch 
services will be allocated and procured on an annual basis.'' Please 
explain in detail how the allocation of these 19 launches, which appear 
to span from FY07 through FY11, comports with Congress' directive to 
the Air Force to eliminate ``mutli-year `allocations' and `pre-awards.' 
'' Going forward, please describe how the Air Force plans to eliminate 
multi-year allocations.
    Dr. Sega. The Air Force is compliant with the FY06 DoD 
Appropriations Conference Report. Per the conference report, the Air 
Force intends to assign and procure the remaining 19 Buy-3 EELV launch 
services on an annual basis. This means that in every year of the 
projected 4-years of Buy III launches, the USAF will assign and procure 
only the launch services that must be ordered in the next fiscal year 
for launch two years later. The April 21, 2005 EELV Launch Services RFP 
notified the contractors that ``[t]he Government reserves the right to 
award, reallocate, and/or reschedule these un-awarded launch service 
missions, or to not make any launch service awards.''
    Mr. Calvert. Dr. Sega, while I am aware that the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) is 
undergoing a Nunn-McCurdy recertification, we all agree that improved 
weather satellite data systems, such as NPOESS, will prove invaluable 
to our warfighters, as well as to our domestic preparedness in dealing 
with certain natural disasters. Can you characterize for the Committee 
how these new sensors and ground system will improve conditions for our 
warfighters, as well as the steps the Department is taking to ensure 
that our warfighters get this improved capability as early as possible?
    Dr. Sega. Collectively, the impact of the new NPOESS sensors and 
ground system will be a more robust knowledge of the environment, which 
equates to an asymmetrical advantage for our warfighters. NPOESS' 
sensors will provide critical environmental data to the warfighters 
faster than the current architecture, enabling better weather modeling 
to help ensure the success of our operations. Data from the NPOESS 
sensors ultimately will provide both US and coalition forces greater 
ability to anticipate the effects of the environment, thereby, allowing 
warfighters to more effectively employ our weapon systems in good 
weather and in bad.
    To ensure NPOESS data is provided to troops as quickly as possible, 
a critical focus is to develop an initial set of the first flight units 
that will be flown on the NPOESS Preparatory Project (NPP). Through the 
Nunn-McCurdy recertification process, DoD is working with the 
Department of Commerce (DOC) and NASA to implement a strategy that 
ensures continuity of service with the existing Polar Operational 
Environmental Satellites (POES) and Defense Meteorological Satellite 
Program (DMSP) constellations, while delivering the necessary NPOESS 
capabilities as quickly as possible.
    Mr. Calvert. The FY06 DoD Appropriations Conference Report (Conf. 
Rpt. 109-359) includes a section entitled, ``Evolved Expendable Launch 
Vehicle (EELV)'' and states in part, ``The conferees . . . direct the 
elimination of multi-year `allocations,' `pre-awards,' and `block buys' 
from Buy-3 and future EELV launch services contracts.'' The Air Force 
has represented that EELV launch services contracts are to be awarded 
annually. For instance, the first award in Buy-3 will be made in FY06 
for launch in FY08 and covers three (3) of the twenty-two (22) total 
EELV Buy-3 missions. The remaining nineteen (19) launches, however, 
have been expressly allocated (though not awarded) to the Boeing 
Company and Lockheed Martine in the Buy-3 RFP. Critically, the 
remaining 19 EELV Buy-3 launches extend from FY07 through FY11. Please 
explain in detail how the allocation of these 19 launches from FY07 
through FY11 comports with Congress' directive to the Air Force to 
eliminate ``multi-year `allocations' and `pre-awards.' '' Further, 
please describe how the Air Force plans to eliminate multi-year 
allocations.
    General Klotz. The Air Force intends to assign and procure the 
remaining 19 Buy-3 EELV launch services on an annual basis. This means 
that every year through the projected 4-years of Buy III launches, the 
Air Force will assign and procure only the launch services that must be 
ordered in the next fiscal year for launch two years later. The 21 Apr. 
2005 EELV Launch Services Request For Proposal (RFP) notified the 
contractors that ``the Government reserves the right to award, 
reallocate, and/or reschedule these un-awarded launch service missions, 
or to not make any launch service awards.''

                                  <all>

</pre></body></html>
